<html>
<title> - TERRORIST THREAT TO THE U.S. HOMELAND</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
    TERRORIST THREAT TO THE U.S. HOMELAND--AL-QAEDA IN THE ARABIAN 
                            PENINSULA (AQAP)

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 2, 2011

                               __________

                            Serial No. 112-5

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
72-216                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4423342b04273137302c2128346a272b296a">[email&#160;protected]</a>  

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Donna M. Christensen, U.S. Virgin 
Tim Walberg, Michigan                    Islands
Chip Cravaack, Minnesota             Danny K. Davis, Illinois
Joe Walsh, Illinois                  Brian Higgins, New York
Patrick Meehan, Pennsylvania         Jackie Speier, California
Ben Quayle, Arizona                  Cedric L. Richmond, Louisiana
Scott Rigell, Virginia               Hansen Clarke, Michigan
Billy Long, Missouri                 William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Vacancy
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                 Patrick Meehan, Pennsylvania, Chairman
Paul C. Broun, Georgia, Vice Chair   Jackie Speier, California
Chip Cravaack, Minnesota             Loretta Sanchez, California
Joe Walsh, Illinois                  Henry Cuellar, Texas
Ben Quayle, Arizona                  Brian Higgins, New York
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Kevin Gundersen, Staff Director
                    Alan Carroll, Subcommittee Clerk
              Stephen Vina, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     2

                                Witness

Dr. Christopher Boucek, Associate, Carnegie Endownment for 
  International Peace:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Dr. Jarrett Brachman, Managing Director, Cronus Global:
  Oral Statement.................................................     9
  Prepared Statement.............................................    10
Mr. Barak Barfi, Research Fellow, New America Foundation:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17

                                Appendix

Questions Submitted by Honorable Billy Long for Christopher 
  Boucek.........................................................    37
Questions Submitted by Honorable Billy Long for Jarret Brachman..    38
Questions Submitted by Honorable Billy Long for Barak Barfi......    38


    TERRORIST THREAT TO THE U.S. HOMELAND--AL QAEDA IN THE ARABIAN 
                            PENINSULA (AQAP)

                              ----------                              


                        Wednesday, March 2, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Meehan, Cravaack, Walsh, Quayle, 
Rigell, Long, Thompson, Jackson Lee, Higgins, and Clarke.
    Also present: Representative Long.
    Mr. Meehan [presiding]. Good morning. The Committee on 
Homeland Security Subcommittee on Counterterrorism and 
Intelligence is now going to come to order. The subcommittee is 
meeting today to hear testimony on the threat posed to the U.S. 
homeland by al-Qaeda in the Arabian Peninsula.
    I would like to welcome everyone to what is the first 
hearing now of the Subcommittee on Counterterrorism and 
Intelligence in this 112th Congress. I look forward to hearing 
from today's witnesses on the threat posed by al-Qaeda in the 
Arabian Peninsula to the United States homeland.
    I also look forward to working with the Members of the 
subcommittee in a bipartisan fashion to ensure that we are 
doing our best to protect the homeland. One of the great, I 
think, legacies of this committee has been the bipartisan 
approach to looking at our shared interest in both assessing 
the nature of the threat as well as protecting our homeland.
    Now, this may be the first committee hearing we have held 
from this subcommittee, but it is done in the context of some 
work that has already taken place just in the course of the 
last few weeks. In fact, on February 9 the full committee heard 
from Secretary of Homeland Security Janet Napolitano that the 
terrorist threat to the United States homeland was at its 
``most heightened state since 9/11.''
    At the same hearing, we heard Michael Leiter, who is the 
director of the National Counterterrorism Center, who told 
Members that he considered al-Qaeda on the Arabian Peninsula to 
be ``the most significant threat to the homeland.''
    So it is under these sort of very clear and sobering 
assessments that we convene today's hearing to examine this 
emerging and multi-faceted threat that is posed by al-Qaeda on 
the Arabian Peninsula. We have a panel of outside experts here 
to discuss this issue, and I look forward to hearing from their 
analysis.
    Since 9/11, the threat from al-Qaeda has evolved. Today the 
enemy we face is more diverse, diffuse, and decentralized, yet 
in many ways more dangerous and more difficult for law 
enforcement and the intelligence community to detect. According 
to Attorney General Eric Holder, in the last 2 years there have 
been 126 people indicted just in the last 2 years on terrorism-
related charges, including 50 United States citizens.
    Among those charged include the Christmas day 2009 bomber, 
Umar Farouk Abdulmutallab; the Fort Hood shooter, U.S. Army 
Major Nidal Hasan; the Times Square bomber, Faisal Shahzad; the 
Little Rock recruiting center shooter, Carlos Bledsdoe; the 
Mumbai plotter, David Headley; Colleen LaRose, just recently 
dealt with in the Eastern District of Pennsylvania, where I was 
the United States Attorney, aka Jihad Jane. I also had the 
opportunity at that point in time to work on the Fort Dix Six.
    Now, these plots are just an example of some, and they 
differ. But a number of them emanated from Yemen, and they were 
inspired or planned by a radical cleric named Anwar al-Awlaki. 
They involved the use of the internet as a tool to recruit and 
to facilitate terroristic threats.
    Al-Qaeda on the Arabian Peninsula has shown itself to be 
successful at recruiting westerners and allowing the enemy to 
reach deeply into the United States to inspire individuals to 
wage jihad. One of the tools, one of the mechanisms, has been 
not just the internet, but the whole use of this new-age media. 
One of the things we want to explore is the extent to which 
this is an actual or real facilitator and posing a real element 
to the emerging threat.
    So this is a dangerous and incredibly challenging problem 
in any context. I will close my comments by saying, of course, 
all of this takes place in the context of what are currently 
rapidly changing events all throughout the Mid-East, but in 
Yemen among them.
    The ramifications for counterterrorism and intelligence 
policy and operations for the United States in months to come 
are all going to be very real as we look at the changing nature 
of what is going on in Yemen, this place in which there is in 
many ways a protected stronghold for al-Qaeda in the Arabian 
Peninsula.
    So I want to thank our presenters here today. We look 
forward to the opportunity to learn from your observations.
    At this point in time, I would like to turn it over to the 
Ranking Member of the Full Committee, the gentleman from 
Mississippi, Mr. Thompson, for any comments or statements that 
he may have.
    Mr. Thompson. Thank you very much, Mr. Chairman, for 
holding this hearing. Congratulations on your new position.
    I think it is clear that I am not Jane Harman. As you know, 
Ms. Harman recently resigned from Congress and has moved on to 
another position. So while we wish her well, her expertise in 
the subject matter area will sorely be missed.
    However, I also want to join you in welcoming all of our 
witnesses, including Mr. Barfi, who just came back from 
witnessing history in Egypt and Bahrain. As I am sure he will 
tell us, democracy is on the march in North Africa and the 
Middle East. While the risk of terrorists exploiting the 
instability is real, the possibilities for good are endless.
    Yemen is one of the places that has seen its share of 
unrest, which continues to make it ripe for al-Qaeda in the 
Arabian Peninsula, AQAP, to strive. Within the last couple of 
years, AQAP has supported two major attempts on the homeland--
the Christmas day bomber and the printer cartridge plot. 
Fortunately, these attacks did not materialize.
    But AQAP has changed the name of the game, making a failure 
that causes us to panic just as good as a successful attack. As 
we know, AQAP leaders are trying to spread this message far 
beyond the borders of Yemen with flashy magazines aimed at 
Western audiences. These threats to the homeland cannot be 
ignored, just like the threats from other domestic extremist 
groups.
    We should also remember that Yemen is an extremely fragile 
state, making it fertile ground for violent extremists. Faced 
with rebellion in the northern provinces and succession talks 
in the south, the Yemeni government has little time to focus 
directly on AQAP. The recent political unrest has only 
compounded the situation.
    Moreover, Yemen's oil reserves, its largest source of 
revenue, are dwindling, as is the Nation's water supply, while 
the population continues to skyrocket. Extremist groups have 
flourished in Yemen by exploiting these weaknesses and the 
government's lack of control.
    While there is no simple answer to address the problems 
that beset Yemen, many experts agree that we need a 
comprehensive strategy that addresses governments and 
development in addition to military and counterterrorism needs.
    Mr. Chairman, I look forward to hearing from our witnesses 
about how we can bring more stability to Yemen and tackle the 
threats of al-Qaeda. I yield back.
    Mr. Meehan. Thank you, Mr. Thompson.
    I want the other committee Members to be reminded that 
opening statements may be submitted for the record.
    Now, we are pleased to have three distinguished witnesses 
before us today on this very, very important topic. Let me 
remind the witnesses that their entire written statement will 
appear in the record.
    So what I would like to do is to first introduce our first 
witness, Dr. Christopher Boucek. Dr. Boucek is an associate in 
the Carnegie Middle East Program, where his research focuses on 
security challenges in the Arabian Gulf and Northern Africa. He 
is a recognized expert on terrorism, security, and stability 
issues in Saudi Arabia and in Yemen.
    He frequently briefs the United States and European 
government and government agencies on terrorism, Islamist 
militancy, and security issues in the Arabian Peninsula and 
regularly provides expert analysis for domestic and 
international media on all of the top media outlets.
    His current research project includes clerical politics in 
Saudi Arabia and the confluences of challenges to Yemeni 
stability, one of the issues that both myself and Mr. Thompson 
have already identified. He has provided expert testimony 
before the House Foreign Affairs Committee and the House Armed 
Services Committee.
    Before joining Carnegie, he was a post-doctoral researcher 
at Princeton University and a lecturer on politics at the 
Woodrow Wilson School. He served as a media analyst at the 
royal embassy in Saudi Arabia and Washington, DC, and for 
several years at the Royal United States Institute for Defense 
and Security Studies in London, where he still remains an 
associate fellow.
    He has also been a security editor with Jane's Information 
Group and is a graduate of the Oriental and African Studies 
Program at the University of London and a BA from Drew 
University.
    Dr. Boucek, you are recognized now to summarize your 
testimony for 5 minutes, please. Thank you.

STATEMENT OF CHRISTOPHER BOUCEK, ASSOCIATE, CARNEGIE ENDOWNMENT 
                    FOR INTERNATIONAL PEACE

    Mr. Boucek. Thank you very much.
    Mr. Chairman, Mr. Ranking Member, Members of the 
subcommittee, thank you very much for the opportunity to be 
here today to discuss the challenges posed by Yemen's 
increasingly fragile situation in the rise of al-Qaeda in the 
Arabian Peninsula. I think what I would like to do is just make 
a few very brief points.
    First of all, I think it is good to follow on the points 
that were initially raised by stressing that Yemen is a country 
under enormous stress. Everything that could possibly be going 
wrong in the country is going wrong. They have a failing 
economy, rapidly growing population, endemic corruption. Soon 
the country will run out of both oil and water, as was 
mentioned. You have systemic problems with governance, 
unemployment, and rising grievances.
    In addition to these systemic factors, you have an on-going 
civil war in Saada in the north of the country, a secessionist 
movement in the south, and a resurgent al-Qaeda organization, 
plus the new protest movement that we have seen emerge over the 
last several weeks.
    It is this resurgent al-Qaeda organization that brings us 
here today. I would follow on the observations made in earlier 
testimony and say that al-Qaeda in the Arabian Peninsula, AQAP, 
represents the greatest threat to American security from any 
terrorist organization right now. I would say that AQAP is a 
bigger threat than the al-Qaeda senior leadership at the core 
al-Qaeda hiding out in Pakistan.
    If you look at what happened on Christmas day, this was the 
first time that al-Qaeda successfully attacked a domestic 
American target, and the plot did not come out of South Asia. 
It came out of Yemen.
    This was followed 2 months later by the package bomb case. 
Again, this was, you know, very worst in development, because 
neither of these plots came from South Asia, from Pakistan or 
bin Laden or Zawahiri. This is al-Qaeda in the Arabian 
Peninsula.
    I think it is useful to point out that what we have seen in 
this organization in the 2 years since it has been created, 
AQAP has become an increasingly agile, opportunistic, and 
lethal organization. They have an extremely fast learning 
curve, where they observe what happened. They are very savvy 
consumers of the media and everything that we say and write 
about them, and it cycles back into their learning curve.
    I think if you look at what is going on in Pakistan, you 
see that al-Qaeda's under sustained pressure, and that pressure 
does not exist in Yemen. There are two things that are needed 
to fight terrorism--the capacity to do so and the political 
will. Right now, the Yemeni government is short on both.
    All the assets that the Yemeni government focuses on 
fighting the civil war or the southern secessionist movement or 
staying in power with the protest movement or to do with the 
economy or water or population growth are resources not focused 
on fighting al-Qaeda. This is a problem for not only the United 
States, but for the international community.
    I think it would be very easy to look at the deteriorating 
security situation in Yemen and think of it as a foreign policy 
issue. While it is certainly a foreign policy issue, and a very 
important one, there is also a domestic security issue.
    I think you can make the argument that you could look at 
the majority of plots and plans in this country for the past 18 
or 24 months, and you would see the vast majority of them are 
tied to either Yemen al-Qaeda in the Arabian Peninsula or Anwar 
Awlaki, the Yemeni American cleric who is hiding out in Yemen.
    It is unfortunate that we do not have a very good 
understanding of AQAP. Westerners don't go to Yemen as they 
used to. It is an increasingly more difficult place to go do 
your research.
    But from what we do see, we see the organization has a very 
sophisticated media apparatus, which my colleague will speak 
about, able to deliver their message in English and in Arabic. 
You no longer need to have, you know, Arabic language or know-
how to use jihadi web forums to access this information. It is 
out there in English. AQAP has broadened the potential audience 
for their message.
    I think a very important point is how Yemen has changed. 
Yemen used to be a place to train or rest between participating 
in jihad abroad. It has been transformed into a place where it 
is legitimate to engage in jihad. If you want to resist 
American aggression, if you want to fight an illegitimate 
government, you can do this in Yemen.
    So now being transformed as a source of inspiration, you 
don't need to come to Yemen to do this. You can read what the 
organization writes, and it says very clearly you can do more 
damage staying at home. You can do more damage shooting up a 
restaurant in Washington, DC, at lunchtime than you can trying 
to come to Yemen to participate in jihad.
    The final point I would make is that while this is a 
terrorism issue, and it is a terrorism issue for us, the answer 
is not all counterterrorism. We need to help the Yemeni 
government build the capacity to deal with these issues. If we 
focus only on counterterrorism, we run the risk of exacerbating 
these issues.
    So we need to have a robust counterterrorism posture, and 
we need to support the Yemeni government. We can't do this to 
the exclusion of everything else. Thank you.
    [The statement of Mr. Boucek follows:]

                Prepared Statement of Christopher Boucek
                             March 2, 2011

    Mr. Chairman, distinguished Members of the committee, thank you for 
inviting me here today.
    Yemen is facing an unprecedented confluence of crises, the 
combination of which threatens to overwhelm the beleaguered Yemeni 
government. The country's problems include international terrorism, 
violent extremism, religious and tribal conflict, separatism, and 
transnational smuggling. Attempts to build effective national 
governance are frustrated by porous borders, a heavily armed 
population, and a historical absence of much central government 
control. More than 3 million barrels of oil pass the country's coast 
every day, through treacherous waters where Islamist terrorists and 
Somali pirates have staged several successful maritime attacks, 
threatening to disrupt international commerce and the flow of vital 
hydrocarbons. These challenges not only endanger Yemen's stability and 
regional security, but they also threaten American domestic security.
    Interrelated economic, demographic, and domestic security 
challenges are converging to threaten the stability of Yemen. At the 
heart of the country's problems is a looming economic crisis. Yemen's 
oil reserves are fast running out, with few viable options for a 
sustainable post-oil economy. Yemen is the poorest country in the Arab 
world, with most people surviving on less than one dollar per day. Its 
population growth rate, which exceeds 3 percent per year, is among the 
world's highest. The government has been unable to provide adequate 
educational or other public services for the rapidly expanding 
population, more than two-thirds of which is under the age of 24, and 
illiteracy stands at over 50 percent (and close to 70 percent for 
women). The faltering economy and poorly prepared workforce have pushed 
unemployment to almost 40 percent. The country's dire economic 
circumstances will soon limit the government's ability to deliver the 
funds needed to hold the country together. The population is expected 
to double to 40 million over the next two decades, by which time Yemen 
will no longer be an oil producer, and its water resources will be 
severely diminished. This is currently the greatest source of violence 
in the country; an estimated 80 percent of violence in Yemen is about 
access to water. A rapidly expanding and increasingly poorer population 
places unbearable pressure on the government's ability to provide basic 
services. Domestic security is endangered by Islamist terrorism, 
magnified by a resurgent al-Qaeda organization, an armed insurrection 
in the North, and an increasingly active secessionist movement in the 
South.
    The recent wave of unrest rocking the Middle East has not spared 
Yemen. Popular protests in Sana'a, Taiz, Aden, and other cities against 
the government of President Ali Abdullah Saleh have been on-going since 
January. This latest challenge has mobilized a segment of the 
population that has thus far not presented much challenge to the Yemeni 
government. In an attempt to short-circuit the protest movement, the 
government announced a series of economic concessions. It sought to 
maintain the allegiance of the military and security forces by 
announcing pay raises and even access to free food and gas. It 
addressed the concerns of civil servants by putting into immediate 
effect salary increases for the lowest paid employees originally 
scheduled for October 2011. It cut the national income tax by half and 
reportedly increased some subsidies and introduced new price controls. 
The government also waved university tuition fees for currently 
enrolled students and announced a scheme to help new university 
graduates find employment. Finally, it extended social welfare 
assistance to an additional half-million families.
    When economic measures failed to quell the discontent, President 
Saleh turned to political concessions. In a speech to the parliament 
and shura council on February 2, he announced that he would not stand 
for re-election in 2013 and that his eldest son and presumed heir, 
General Ahmed Ali Abdullah Saleh, commander of the Republican Guard, 
would also not run for president. He ``froze'' the implementation of a 
controversial constitutional amendment eliminating term limits on the 
presidency. Saleh also stated that regional governors would now be 
directly elected rather than indirectly elected by local councils, a 
little noticed but important change. And finally, he called for the 
formation of a national unity government and the re-launching of the 
stalled national dialogue process, and postponed parliamentary 
elections scheduled for this April to allow time to properly prepare.
    Although the regime nominally met almost all of its demands, the 
opposition promptly rejected the concessions, not trusting the 
president to keep his promises. Saleh has previously pledged not to 
seek re-election, but has gone back on his word numerous times in the 
past.
    Yemen's challenges are compounded by corruption, severe governance 
deficiencies, and an absence of central government control in much of 
the country, as well as by the pending transition in political 
leadership. While Saleh announced last month that he would not stand 
for re-election, he has no obvious successor. The post-Saleh government 
will be severely strained by a combination of reduced revenue, 
diminished state capacity, and three on-going conflicts including the 
7-year-old civil war in the North against the Houthi rebels, an 
increasingly violent secessionist movement in the South, and a 
resurgent al-Qaeda organization.
    The deteriorating security situation in Yemen is not purely an 
international issue. Greater instability in Yemen is a domestic 
American security issue, as evidenced by the emergence of al-Qaeda in 
the Arabian Peninsula.

                   AL-QAEDA IN THE ARABIAN PENINSULA

    Since its creation in January 2009, the Yemen-based al-Qaeda in the 
Arabian Peninsula (AQAP) has eclipsed ``core al-Qaeda'' as the primary 
terrorist threat to U.S. National security. Since last year I have 
asserted that AQAP has emerged as the organization most likely to kill 
American Nationals and to attack U.S. interests. In an address at the 
Carnegie Endowment last December, Assistant to the President for 
Homeland Security and Counterterrorism John Brennan termed AQAP ``the 
most operationally active node of the al-Qaeda network.'' In testimony 
last month, National Counterterrorism Center Director Michael Leiter 
referred to AQAP as the most significant risk to the U.S. homeland.
    AQAP has rapidly evolved into an increasingly lethal and agile 
organization, with a proven track record of mounting operations within 
Yemen, regionally, and internationally. AQAP thrives on Yemen's 
internal disarray. The government's inability to control territory 
provides the space al-Qaeda craves, using poverty and legitimate 
grievances against a repressive domestic regime to win support.
    AQAP learned the lessons of the failed al-Qaeda campaign in Saudi 
Arabia. It avoids targeting Yemeni civilians, has a highly 
sophisticated media apparatus, and is cautious not to repeat the same 
mistakes made in the kingdom. More worrisome, when initial operations 
have been unsuccessful, AQAP has re-attacked the same target, such as 
the U.S. Embassy in Sana'a (attacked twice in 2009), Saudi Prince 
Muhammad bin Nayef (who has survived four reported assassination 
attempts by AQAP), and British diplomatic targets in Sana'a (attacked 
twice in 2010). This should serve as a very dire warning when we 
consider AQAP's two attempted attacks so far against U.S. aviation 
targets.
    The organization has a very fast learning curve, quickly adjusts 
and improvises, and is very adept at exploiting opportunities. AQAP has 
been clear in stating its planned objectives, and it has repeatedly 
delivered on its threats. These concerns are heightened by the presence 
of Yemeni-American cleric Anwar al-Awlaqi in Yemen and his alleged role 
in inciting English-speaking foreigners to engage in violence and 
militancy. Moreover, many of the recent alleged terrorist plots and 
plans in the United States appear to be linked to Yemen, AQAP, and 
Awlaqi.
    The attempted bombing of Northwest Flight 235 over Detroit on 
Christmas day 2009 marked the first time since the September 11 attacks 
that al-Qaeda had successfully engaged a domestic American target. This 
attack was further noteworthy because the plot did not originate in 
South Asia with the al-Qaeda Senior Leadership--it came from Yemen. The 
Christmas day attack was followed some 10 months later when AQAP again 
targeted U.S. aviation assets with the attempted delivery of explosives 
concealed as cargo packages mailed from Yemen. The worst-case scenario 
was narrowly avoided in both these cases, but not by successful 
proactive counter-terrorism efforts. We cannot count on our luck 
continuing.
    The 2009 Christmas day attack demonstrated an early desire to 
attack on American soil. The October 2010 parcel bomb plot is just the 
latest evidence that AQAP is now the greatest single terrorist threat 
to the security of the United States--a greater danger even than al-
Qaeda's central leadership.
    AQAP's growing ambitions and reach have also seen more successful 
operations in Yemen itself. In 2010 there were more than 50 AQAP 
attacks in Yemen. In the first 2 months of 2011 there have been over 10 
attacks. AQAP has targeted energy infrastructure, foreigners, and 
domestic security forces. It has also successfully cast U.S. air 
strikes and military support--including cruise missile strikes in 
December 2009--as examples of American aggression.
    We should be clear that there is much that we do not know about 
AQAP. While we may want to view AQAP as a formal organization with an 
established hierarchy, other analysts have also noted that it is 
doubtful that killing or capturing the group's top leaders will 
eliminate Yemen's al-Qaeda problem. It would likely degrade AQAP's 
ability to mount operations; however, the grievances that fuel 
militancy in Yemen would also likely remain.
    I would suggest that there are likely several trends within AQAP. 
First, the Yemenis active in the organization seem to be focused 
primarily on a local agenda. Second, the Saudis active in the group are 
generally less focused on local Yemeni politics and more intent upon 
returning to the kingdom to strike at the Saudi government. The third 
trend is that foreign nationals--as well as some Yemenis and Saudis--
are focusing primarily on international and Western targets. I would 
place within this last grouping the Westerners active with AQAP--
including Americans--as well as Anwar al-Awlaqi. These distinctions are 
not hard and fast, and there is very likely movement and overlap 
between them.

                              MEDIA USAGE

    The group is very skilled at amplifying its message, as seen by the 
debut of the AQAP-affiliated English-language magazine Inspire calling 
for attacks on the United States. Its powers of communication, along 
with growing military successes, have begun to attract increasing 
numbers of foreign terrorists into Yemen. The organization has 
developed a very sophisticated media operation, in both Arabic and 
English. Through the English-language magazine Inspire, now in its 
fourth issue, the organization is able to reach a much broader 
audience. In addition, just about the time that Inspire was first 
released in July 2010, a new YouTube channel appeared featuring many of 
AQAP's videos subtitled into English. While the channel is no longer 
available, the material remains on-line, reposted by other users. Both 
of these developments demonstrate how AQAP has dramatically increased 
the size of its potential audience. No longer does one need Arabic or 
particular know-how to navigate jihadi web forums. Non-Arabic speakers 
can now access this material using Google and YouTube.

                         YEMEN'S CHANGING ROLE

    Over the years, Yemen had been a place to train and prepare for 
jihad or to rest between campaigns. It is now being transformed into an 
actual theater of jihad. As other observers have noted, Yemen is being 
portrayed by AQAP as a place where it is legitimate to engage in jihad. 
In this portrayal, aspiring militants can resist American aggression 
and fight an illegitimate government in Yemen. AQAP has gone on to 
further recast Yemen as a ``source of inspiration'' for potential 
extremists located overseas. The organization has noted in Inspire that 
volunteers can do greater damage at home, without needing to travel 
abroad.
    In conclusion, AQAP has quickly eclipsed core al-Qaeda as the most 
immediate terrorist threat to U.S. persons and interests. While the al-
Qaeda Senior Leadership may still have the ambition to launch 
spectacular attacks against the United States, AQAP has emerged as the 
more imminent threat. This is exacerbated by the concern that AQAP has 
had success in recruiting Westerners, including converts, who do not 
fit traditional terrorist profiles. It will be more difficult to 
identify and disrupt plots led by these individuals. Very clearly 
Yemen's problems are not staying in Yemen and AQAP poses a grave and 
growing threat to American domestic security.

    Mr. Meehan. Well, thank you, Dr. Boucek. In addition to 
your very insightful observations, I note that you just got 
that right done with 3 seconds to go, so you are obviously a 
learned hand at this particular issue.
    Let me ask our next witness, Dr. Jarret Brachman, the 
managing director of Cronus Global, to be ready to make some 
comments. But before he does so, let me introduce a bit about 
Dr. Brachman's background.
    He is an internationally recognized counterterrorism 
specialist, author, and public lecturer. In 2003 while 
completing his doctorate from the University of Delaware, he 
served as a graduate fellow at the CIA's Counterterrorism 
Center. In 2004 Dr. Brachman joined the Combating Terrorism 
Center at West Point. Dr. Brachman became the Counterterrorism 
Center's first director of research and oversaw a number of 
research projects about al-Qaeda ideology and strategy.
    In 2008 Dr. Brachman resigned from the West Point CTC and 
returned to his hometown in North Dakota. He is now the 
managing director of Cronus Global, a security and strategy 
consulting group. Dr. Brachman published his first book, 
``Global Jihadism Theory and Practice,'' in 2008.
    Dr. Brachman, thank you for being here. You are now 
recognized to summarize your testimony.

STATEMENT OF JARRETT BRACHMAN, MANAGING DIRECTOR, CRONUS GLOBAL

    Mr. Brachman. Thank you, sir.
    Thank you, distinguished Members of the subcommittee.
    You know, I think maybe the best way to understand the al-
Qaeda media world is to think about it a little bit like 
football. So if you think about the actual operatives out there 
on the field like the NFL players, beyond that, though, you 
have the commentators, who do the play-by-play analysis, right? 
These are experts who may have been former players, but then 
they step back. Then you have got a broader set of 
commentators, who come on the roundtables.
    But then you have got this whole on-line world of pundits, 
of fans--you have die-hard fans--who are both on-line. If you 
think about the role that, say, fantasy football has played in 
allowing guys, who don't really go to games but can wear the 
jerseys, to become obsessed, to throw themselves, to feel as if 
they are right there on the field with their favorite players, 
you know, that is kind of what has been going on with al-Qaeda 
in terms of their media outlet.
    They have taken this ability for people who are--you know, 
it used to be very elitist. It was very difficult to get out 
there and do something, but now, thanks to the internet, anyone 
anywhere can feel empowered to play a part in this.
    So if you look back to the way that al-Qaeda media has 
developed over the past 10 years, I think it helps to 
understand where AQAP fits. Around the time of 9/11, al-Qaeda 
was very operationally centric, right? The point was to go 
conduct operations and then cover it with the media in the 
aftermath.
    At the time we went into Afghanistan and we marginalized 
their operational abilities, media started to take precedence. 
In the absence of doing real operations, you could issue media 
statements. Videos became the parallel of actually conducting 
attacks.
    So by 2005 to 2007, as al-Qaeda started to get back on its 
legs, they realized, well, maybe there could be an interesting 
symbiosis here between the media and the real world. And al-
Qaeda, I argue, started to shift its focus from being a 
terrorist organization that haphazardly used the media almost 
into a media organization that kind of haphazardly uses 
terrorism, right?
    So most of this media was focused in Arabic, so there was a 
lot of excitement in the Arabic on-line world--again, this kind 
of fantasy football metaphor where people could log on. They 
could download these tactical manuals, download the strategic 
manuals.
    But the English-language speakers always felt like second-
class citizens in this world. You know, they tried to bring in 
some populist figures, some Americans, Adam Gadahn, for 
instance, who Zawahiri and bin Laden hoped would be kind of an 
ambassador to the American, you know, al-Qaeda supporter world.
    It just didn't work. They kept falling flat, because these 
guys, although they are Americans, they looked and smelled just 
like Zawahiri. They acted just like the Arabs did. So it wasn't 
really compelling.
    You started to see this shift when--there are a couple of 
different individuals. One is Omar Hammami, who is an American 
who went over to Somalia and released a rap video on-line, 
right, a jihadi al-Qaeda rap video. This was all the rage for 
these kids, because it was someone who looked like them, acted 
like them, but who was out there doing it. It was again that 
fantasy football. It was, like, what if I could strap on pads 
for a day and go join, you know, my favorite team?
    Another guy who became very compelling is Anwar Awlaki. 
Again, it is because they had been following him for years. He 
looked like them. He acted like them. But he was able to 
upgrade. I mean, I call it something like ``al-Qaeda Idol,'' 
right? These aren't superstars anymore. These are people who 
went through the process. They watched them go through the 
process. They were just like them, but then they could go do 
it.
    So I think what AQAP is really focused on is making this 
movement more accessible not only with the flashy graphics, but 
providing not just objects, but experiences, a quest, an 
adventure that kids can be a part of. They can feel as if, you 
know, the more I learn, the more status in this world I will 
get.
    It is like trading baseball cards. It is not really about 
the baseball card itself. It is about the process of going to 
buy them with your friends, talking about it, researching who 
has got the best cards, who can trade them. You know, it is the 
knowledge that you gain from being a part of this community.
    So I think there is a little misplaced focus within the 
Government on, you know, how scary the tactics that are being 
promoted in these magazines are. These tactics have been around 
for a decade. They have been, you know, venerable.
    It is that AQAP has managed to consolidate them in a very 
accessible, engaging, more importantly, fun and competitive 
way. They have turned al-Qaeda into an on-line game, into a 
fantasy football environment where, you know, you can join up 
at your own time at your own leisure and, you know, you can do 
this from the comfort of your own home. So thank you.
    [The statement of Mr. Brachman follows:]

                 Prepared Statement of Jarret Brachman
                             March 2, 2011

    Although there can be no disputing the success that al-Qaeda in the 
Arabian Peninsula's (AQAP) has reaped as of late by using the internet 
to inspire and mobilize on-line followers in the United States, the 
underlying reasons for that success remains poorly understood within 
the American counterterrorism community. This is largely due to the 
fact that most analytical attention is being paid to the tactical 
dimension of AQAP's media releases--stylistic elements, the Americans 
who are mentioned by name or specific threats made--while relatively 
little focus is given to the mechanics underlying AQAP's on-line 
mobilization strategy. It is as if the counterterrorism community has 
been so fixated on the latest bells and whistles of AQAP propaganda 
that few analysts have actually popped the hood.
    My testimony today will concentrate on examining why AQAP's media 
products and personalities have found so much resonance with English-
speaking individuals outside of the Gulf region of the Middle East, 
paying specific attention to the threat it poses to the U.S. homeland. 
From Texas to Virginia to New York and beyond, AQAP's American 
supporters seem to be finding self-actualization in consuming and 
reproducing AQAP's internet messaging, both in the virtual world and, 
increasingly, in the physical world.
    I argue that AQAP's strategic approach to on-line media has allowed 
the organization to deliver more than just information to its on-line 
supporters. AQAP now provides its on-line community with a compelling, 
comic book experience, one that equips individuals with the tools they 
need while demystifying the path they must take, to become their own 
al-Qaeda superhero.
    AQAP provides an arena for escapist fantasy and role-playing by 
empowering their audience with new knowledge, skill-sets, role models, 
and incentives for actualizing that knowledge. AQAP's role models, like 
any comic superhero, are portrayed as average men who discover that 
they have superhuman abilities. These ``ordinary guys turned 
superheroes'' who comprise AQAP's dominant media personalities must 
then wield their superpowers to triumph over evil (the Crusaders) and 
save damsels in distress (Islam).
    Just as kids in the United States trade comic books and baseball 
cards, Tweets, and Facebook comments, American supporters of al-Qaeda 
now can trade AQAP media products and insights. They can play along on-
line or try to replicate AQAP's adventures at home. AQAP is not just 
about an abstract fight against a faceless enemy for their American on-
line cheerleaders. Thanks to its clever use of English-language media, 
AQAP has been able to put those American supporters on a noble quest to 
vanquish injustice and save the world from the invading evil.

                          THE AL-AWLAKI EFFECT

    Shaykh Anwar Al-Awlaki, an American-born hardline Islamic cleric 
who now serves as a senior member of al-Qaeda in the Arabian Peninsula 
(AQAP), has managed to become the most likeable terrorist among Western 
al-Qaeda supporters. Although al-Awlaki has been focused on quietly 
desensitizing his audiences to a hardline reading of Islam through his 
prolific internet-based video and audio lectures for over a decade, al-
Awlaki's recent shift to openly and directly calling for violence 
against the United States has meant new challenges for America's 
counterterrorism professionals.
    Al-Awlaki offers AQAP something that few al-Qaeda personalities 
have been able to do: Speak persuasively to an English-speaking 
audience without a deep knowledge of Islamic history or interest in 
complex theological arguments. To the contrary, al-Awlaki speaks as a 
populist about everyday challenges that Muslims face. This inclusive 
approach has helped to brand al-Awlaki as one of al-Qaeda's most user-
friendly personalities--he has become an al-Qaeda gateway drug so to 
speak.
    Now that he is formally aligned with AQAP, al-Awlaki has focused on 
using the internet to repackage al-Qaeda's often elitist, esoteric, and 
inhospitable message into something that more individuals in more 
geographical locations who hold a wider range of beliefs are able to 
both understand and, importantly, aspire to replicate on their own.
    Al-Awlaki's accessibility is a function of his stylized persona: He 
is a caricature of previous generations of hard-line clerics. He has 
replicated all of their surface attributes: He carries himself like 
them, preaches like them, and addresses similar issues. But the 
difference between al-Awlaki and the legendary jihadist cleric, Abu 
Muhammad al-Maqdisi, for example, is that al-Awlaki lacks depth, both 
in knowledge and expertise. Ironically, however it is his lack of 
religious knowledge that he trades on. In other words, al-Awlaki is a 
replica of the real thing that sells precisely because he is perceived 
as being more authentic for not being an al-Maqdisi.
    Seeing al-Awlaki in video form allows his fans to better comprehend 
the difference between who they are and who they want to be--embodied 
in him. Thanks to the internet, an army of young individuals who want 
to be the next al-Awlaki are now doing their own al-Awlaki 
impersonations. The more that they have seen al-Awlaki perform, and the 
easier that celebrities like al-Awlaki make it for anyone to act like 
them, speak like them, and preach like them, the more these individuals 
begin to identify as--and occasionally acting like--these al-Qaeda 
celebrities themselves. The line between their physical self that is 
performing and the virtual self that they have constructed in the image 
of their favorite caricatures begins to blur.

                            INSPIRING ACTION

    Perhaps no AQAP media product has been better for blurring the 
virtual and physical worlds than its English-language magazine, 
Inspire. Since releasing their first issue of Inspire, AQAP has 
continued to pioneer creative ways for empowering and motivating their 
on-line supporters. Although the magazine's kitschy tactical advice and 
slick graphical featurettes has made for compelling headlines, most 
public discussions about the magazine have yet to provide an adequate 
explanation for why Inspire actually matters.
    Certainly the Inspire series has helped to make al-Qaeda's 
personalities and ideology more accessible to more people. But such 
intense focus about the magazine's engaging tone and stylistic 
attributes reflect the general low-level of theoretical sophistication 
in the counterterrorism field today. Inspire is far more than just 
another propaganda junket released by al-Qaeda: It is not just about 
getting kids to blindly follow Inspire's recipe for building ``a bomb 
in the kitchen of your mom.''
    The real reason that Inspire should be considered such an 
achievement for al-Qaeda is that it lowers the proverbial wall that has 
deterred most on-line al-Qaeda supporters from actually going 
operational. Until recently, most of al-Qaeda's internet cheerleaders, 
or ``jihobbyists'' as I have referred to them previously, have confined 
their participation to the bounds of their on-line communities. It was 
the exception to the rule that an internet supporter would actually log 
off their computers and pick up a weapon to go kill in the physical 
world.
    Before individuals like Zachary Chesser, Nidal Hasan--both of whom 
were in direct contact with al-Awlaki, there had been few ``internet 
supporters turned real world terrorists'' because the gulf between 
thought and action has been too great. The incentives for bridging that 
gulf were not compelling enough to entice a mass migration of on-line 
jihadists to the physical world. Political scientists might refer to 
this as a free-rider problem, where individuals benefit off of the work 
being done by others without paying their share.
    With the barriers so high and the incentives for martyrdom so 
seemingly distant--most on-line supporters al-Qaeda kept running into a 
glass ceiling. No matter what they did, their global on-line supporters 
remained, by and large, part-time jihadists, logging on to their 
favorite websites after work or on weekends. These armchair enthusiasts 
who put on their al-Qaeda costumes when it is convenient for them do 
not get al-Qaeda to where they want to go. Inspire, al-Awlaki, and AQAP 
is trying to change all that.
    Nobody understood that challenge of prodding jihadist supporters 
down radicalization road better than Anwar al-Awlaki. The American-
Yemeni born cleric now spearheading AQAP's English-language outreach 
division and the Inspire initiative had been trying to incrementally 
radicalize his fan club for years. But since joining AQAP, al-Awlaki's 
approach shifted from sowing seeds of long-term jihadi radicalization--
as he had been doing historically--to harvesting as many crops as 
possible.
    Al-Awlaki's personal website, which went down in the aftermath of 
the 2009 Fort Hood shooting, served as the virtual home to hundreds of 
al-Awlaki's devotees. Many of their web postings reflected a desire to 
live up to themselves--to attain in the physical world the kind of 
power and influence that they had earned in the virtual world.
    As these individuals read Inspire and watch AQAP videos, as they 
register on al-Qaeda web forums and build avatars on social networking 
sites, they become increasingly ``real'' within al-Qaeda's virtual 
space. For some users, these on-line personas, or avatars, are close 
mirrors of their physical lives. Individuals may use their own images 
on their profile pages or openly discuss things that happen in their 
physical lives. Others, however, create stylized personas that differ 
significantly from the physical lives they lead. These personas are 
generally bad replicas of stylized caricatures of their heroes, such as 
al-Awlaki.
    Individuals begin interacting within certain on-line environments 
and try to replicate identities and attributes that they find ideal. In 
the process of registering, programming, uploading, and interacting 
with others by posting, tagging, and instant messaging, they gain a 
sense for the behavioral norms and expectations within that context. It 
is this communication of the kinds of social markers--attributes, 
accoutrements, and vernacular--that are common and acceptable among 
their peers that Inspire has been able to offer.
    Whereas al-Qaeda supporters clamor for authentic experiences, they 
embrace what Randall L. Rose and Stacy L. Wood refer to as the ``ironic 
mixture of factitious and the spontaneous.'' In other words, al-Qaeda 
on-line users have created a world premised on aspiring to the 
authentic but they do so in the most inauthentic of places: The 
internet. Achieving real-life authenticity on-line is, by definition, 
not authentic at all. Rather, it is a fictionalized, stylized version 
of authenticity that on-line participants can believe is authentic 
because it is as close as most of them will ever come to living up to 
their virtual selves.
    Through the process of ``doing'' on-line extremism, one gains a 
sense for the available cast of roles to perform. In the act of 
performing, individuals further entrench those roles within their 
social context, making the roles all the more real. It is this 
acceptance of the stylized, faux reality that allows AQAP to flourish. 
Virtually everything about their propaganda, most notably the Inspire 
magazine itself, is comic-book-like, cartoonish, or caricatured in 
nature. But that disdain for authenticity in its traditional 
understanding is what has allowed AQAP to snatch the proverbial 
megaphone away from Al-Qaeda's Senior Leadership.

                              IMPLICATIONS

    Since at least 2005, al-Qaeda's global movement has tried to 
transform itself from an elitist, exclusive, hierarchical organization 
into an increasingly inclusive global movement. More populist figures 
like Abu Yahya al-Libi helped engage much of al-Qaeda's Arab audience, 
but the Western, English-speaking part of the movement fell behind. Al-
Qaeda's English-language world needed a role model that it could call 
its own: Someone who instinctively understood the challenges of being 
Muslim in the West.
    Anwar al-Awlaki, with his charismatic demeanor and simplified 
approach to the issues he discusses, has strategically and 
systematically made painted the notion of joining al-Qaeda a natural 
progression next step from becoming more religious. In other words, he 
has lowered the expectations of what it means to be a member of al-
Qaeda. Today, anyone can be an al-Qaeda propagandist, and al-Awlaki's 
job is to narrow the distance between non-violent propagandist and 
violent al-Qaeda activist. More people than ever are being called to 
al-Qaeda, not through the clenched fists of Ayman al-Zawahiri, but 
through the open arms of Anwar al-Awlaki.
    Al-Awlaki has been so successful in winning the hearts and minds of 
Westerners because he made his path to al-Qaeda a step-by-step program 
that anyone could emulate. Western Muslims have listened to his audio 
recordings over and over. Many have heard him preach in person and some 
have even taken him out to lunch. His books have been read, his videos 
watched. When al-Awlaki joined al-Qaeda, he took the next step. Now his 
droves of supporters scramble to download the latest issue of Inspire 
to see how they can be al-Awlaki better.
    The biggest challenge for governments given this new situation is 
that it means law enforcement will have a harder time distinguishing 
between legitimate security threats and those who may be doing legal 
activities in the name of al-Qaeda, such as making graphics or 
websites. If they over-police those individuals who may not be 
operationally supporting al-Qaeda, governments may actually be creating 
a self-fulfilling prophecy, where their search for terrorists is 
actually the catalyst for the emergence of operational terrorists, not 
just virtual fantasy ones.
    Unfortunately, there remains no consensus about how far is too far 
when talking about using the internet to advocate on behalf of al-
Qaeda. Is uploading a photo of AQAP's Anwar al-Awlaki as one's Facebook 
avatar a cause for concern? Or is this just a way to blow off steam? 
Could it actually be cathartic--and therefore good for us--in that it 
helps individuals release the frustration and anger they hold in the 
real world? Or is it a slippery slope: One day uploading al-Awlaki 
images, the next taking up arms against the United States?
    That said, the al-Qaeda organization will face its own challenges 
in steering and guiding this movement of wannabes. By appealing to the 
lowest common denominator in making al-Qaeda so open and accessible, 
individuals operating in the name of al-Qaeda will invariably do things 
that are actually counterproductive to their strategic objectives.
    Al-Qaeda has taken a gamble by flattening their movement. In the 
short term, thanks to charismatic personalities like al-Awlaki, it has 
created an influx of individuals who can now see themselves jumping 
across a lower fence over to al-Qaeda's side. But in the long term it 
may actually be a dilution of that which made al-Qaeda so exclusive, 
and therefore alluring in the first place.

                            RECOMMENDATIONS

    The U.S. Government is missing the boat on AQAP's use of the media 
because it continues to view the problem through typically bureaucratic 
lenses and relying on outmoded ideas for how to combat this threat. 
What has the now decade-long Government conversation about empowering 
``alternative voices'' and developing ``positive counter-narratives'' 
actually achieved? More Americans today have more opportunities to 
support al-Qaeda in more ways than ever before.
    A breath of fresh air has long been needed in this field, one that 
approaches al-Qaeda's pioneering efforts to recruit, radicalize, 
mobilize, and operationalize Americans via internet propaganda through 
their eyes, not ours.
    The U.S. Government ought to do two things immediately on the 
topic. First, the appropriate Government agency ought to sponsor a 
series of out-of-Government academic studies that examines the 
underlying mechanism of AQAP's English-language propaganda. To be 
effective, and depart from the conventional analysis being delivered on 
this topic, this series must reach into bodies of literature and 
subject matter experts who are have not been previously engaged, most 
notably ``gamification,'' social community development, on-line viral 
marketing, film, and literary theory on superheroes.
    Second, once developed, the insights from these studies--which must 
interweave its theoretical concepts and frameworks with real-world 
examples of AQAP's recruitment, radicalization, mobilization, and 
operationalization in order to be effective--must be fed back into the 
Government. An effective vehicle for doing that would be to develop a 
series of training modules for State intelligence fusion centers to 
empower those professionals on the front-lines with an updated 
strategic level understanding of AQAP's efforts and familiarity with 
the kinds of tactics they are using and marketing.

             Appendix 1.--Why ``Inspire'' Actually Matters

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The innovative ways that al-Qaeda now uses the internet allows 
supporters to mobilize on-line far faster and easier than they could in 
the real world. Some of these ways include ``gamifying'' the on-line 
experience and offering more accessible role models to emulate. At some 
point, these al-Qaeda on-line supporters begin to understand that their 
physical world self is a far cry from the hero-like status of their on-
line avatar. It is this cognitive dissonance that AQAP has sought to 
foment because it is in this feeling of instability that individuals 
are most susceptible to external influence.
    Products like Inspire offer tangible, incremental, and accessible 
ways for American supporters to resolve that dissonance. It gives them 
sure-fire, do-it-yourself advice. It offers them cultural insights and 
road maps. Inspire helps make the process of living up to your virtual 
self that are less scary than it might seem at the outset.

    Mr. Meehan. Thank you so much, Dr. Brachman, for your 
testimony.
    Now we turn to our third expert. I would like to introduce 
Mr. Barfi.
    I will recognize you for your testimony.
    But first let me give again the background of Mr. Barfi. 
Mr. Barfi's a research fellow in the New American Foundation, 
where he specializes in Arab and Islamic affairs. Prior to 
joining New American, Mr. Barfi was a visiting fellow with the 
Brookings Institution. Before that, he worked as a producer 
with ABC News affiliates in the Middle East and in Europe.
    He has lived in several Middle Eastern countries, which 
gives him a real actual sense of the world on the ground, 
including Egypt and Yemen. He recently returned from the Middle 
East, where he witnessed the Egyptian revolution first-hand and 
recently reported on the unrest in Bahrain.
    Mr. Barfi, thank you for coming here today. You are 
recognized to summarize your testimony.

    STATEMENT OF BARAK BARFI, RESEARCH FELLOW, NEW AMERICA 
                           FOUNDATION

    Mr. Barfi. I want to begin by thanking Chairman Meehan and 
Ranking Member Thompson for inviting me to speak today.
    As the Chairman said, I recently returned from a month-long 
journey in the Middle East, where I witnessed the events in the 
Egyptian revolution and the political unrest in Bahrain. The 
events in the region are challenging long-held views about the 
area, and Washington must be ready to respond.
    Nor is this truer than in Yemen. In the wake of the 2009 
Christmas day bombing, I wrote a policy paper on Yemen in which 
I argued against the prevailing wisdom that the country was a 
failed state on the verge of collapse. I maintained that the 
threats facing Yemen--a secession movement, a sectarian 
rebellion, a strong al-Qaeda presence and economic unrest--were 
not enough to topple a country, which has historically been 
marked by turmoil sometimes bordering on chaos.
    Since then two Arab states have succumbed to a 
revolutionary fervor sweeping the Middle East. A third is on 
its knees, and a fourth called out the military to quell the 
protests. Yet while regimes were falling between December and 
February, Yemen hobbled along.
    Today, however, the viability of President Ali Abdullah 
Saleh and his regime are in question. For the first time in 
Yemeni history, most of the tribes of the two large 
confederations publicly oppose the regime. The ruling party has 
suffered numerous defections, strikes are damaging the economy, 
and military units are mutinying against their superiors.
    Among the challenges that the Saleh regime faces is a 
resilient al-Qaeda. The organization has a long presence in 
Yemen. The family of al-Qaeda founder Osama bin Laden hails 
from the eastern province of Hadramaut, and Yemen has always 
held a special place in his heart.
    After he moved to Afghanistan in 1996, bin Laden recruited 
Yemenis to staff key positions in his inner circle. He also 
used Yemen as a clearinghouse, running phone calls through the 
country and sending people to safe houses there. But by the end 
of the decade, he decided to transform Yemen from a logistical 
hub into an operational theater. To this end, al-Qaeda targeted 
the U.S.S. Cole in October 2000.
    After the 9/11 attacks, the Yemeni government allied itself 
with Washington and began cracking down on al-Qaeda. It 
arrested key operatives and allowed the United States to stage 
a missile strike against the organization's leader. By 2004 it 
appeared that al-Qaeda had been decimated.
    A January 2000 prison break by mid-level cadres 
reinvigorated the organization, and by the end of the year, it 
was once again operational. Since then al-Qaeda has carried out 
dozens of attacks against regime targets, Western diplomats, 
tourists, and oil installations. In December 2009 it embarked 
on a new strategy when it dispatched a suicide bomber to attack 
the American homeland.
    Al-Qaeda in the Arabian Peninsula is shrewd, compact, and 
has shown remarkable resolve in implementing its strategy 
without getting distracted by superfluous conflict. The group 
is a formidable adversary, the likes of which Washington has 
not faced since bin Laden's organization was decimated in 2001.
    AQAP has taken advantage of restless tribal regions to 
establish strongholds in areas far beyond the purview of the 
central government. Historically, Yemeni governments have been 
too weak to extend their authority to outlying provinces, 
giving the tribes there a substantial degree of independence.
    At the same time, though, these clans have been frustrated 
by the modern state's inability to provide them with basic 
services. As a result they have often sold their loyalty to the 
highest bidder.
    Today AQAP has exploited the tensions between the central 
regime and the tribal areas to carve out a sphere of influence. 
The organization is able to operate in these regions often 
without fear of government retribution. It recruits mid-level 
cadres and foot soldiers among the tribes that host it.
    AQAP is firmly entrenched in Yemen. American air strikes 
against the group in December 2009 and January 2010 failed to 
neutralize the group. On the contrary, and emboldened AQAP was 
able to ratchet up its violence in 2010, carrying out more 
attacks last year than in any previous year.
    The Yemeni military is ill-equipped to subdue AQAP. It is 
unable to operate efficiently in tribal areas that the 
organization calls home. Units dispatched to arrest AQAP-
operated cells are often captured. American training has gone a 
long way to shore up the Yemeni military. Nevertheless, there 
still is much that needs to be done to bring up these forces to 
the combat levels necessary to confront AQAP.
    The current unrest gripping the country is bound to benefit 
the organization in the short term. With the regime 
increasingly focused on survival, it is likely to shift 
military resources away from targeting AQAP, freeing the 
organization to plot attacks. In short, 2011 holds great 
promise for a group that historically thrived on political 
instability.
    With that, I will turn it back over to you, Chairman.
    [The statement of Mr. Barfi follows:]

                   Prepared Statement of Barak Barfi
                             March 2, 2011

    I want to begin by thanking Chairman Meahan and the committee 
Members for inviting me to speak today. I would also like to thank my 
advisor Professor Richard Bulliet of Columbia University for teaching 
me the skills necessary to understand the Middle East. My prayers are 
with him and his family right now as they face a difficult time. I just 
returned from a month-long journey in the Middle East, where I 
witnessed the Egyptian revolution and political unrest in Bahrain. 
Events in the region are challenging long-held views about the region, 
and Washington must be ready to respond.
    Nowhere is this truer than in Yemen. In the wake of the 2009 
Christmas day bombing, I wrote a policy paper on Yemen in which I 
argued against the prevailing wisdom that the country was a failed 
state on the verge of collapse. I maintained that the threats facing 
Yemen--a secession movement, a sectarian rebellion, a strong al-Qaeda 
presence and economic turmoil--were not enough to topple a country 
historically marked by turmoil sometimes bordering on chaos. Since 
then, two Arab states have succumbed to the revolutionary fervor 
sweeping the Middle East, a third is on its knees, and a fourth has 
called out the military to quell protests.
    Yet, while regimes were falling between December and February, 
Yemen hobbled along. Today, however, the viability of President Ali 
Abdallah Salih and his regime are in question. For the first time in 
Yemeni history, most of the tribes in the two largest confederations 
publicly oppose the regime. The ruling party has suffered numerous 
defections, strikes are damaging the economy, and military units are 
mutinying against their superiors. A wily survivor, President Salih 
will have to reach deep into his bag of tricks to survive the latest 
and most serious threat to his 32-year rule.

                    THE HISTORY OF AL-QAEDA IN YEMEN

    Among the challenges the Salih regime faces is a resilient al-
Qaeda. The organization has a long history in Yemen. The family of al-
Qaeda founder Usama Bin Ladin heralds from the eastern province of 
Hadhramawt and Yemen has always occupied a special place in his heart. 
In the early 1990's he was active in Yemeni politics, working to combat 
the atheist Socialist party.
    After he moved to Afghanistan in 1996, Bin Ladin recruited Yemenis 
to staff key positions in his inner circle. He also used Yemen as a 
clearinghouse, routing phone calls through the country and sending 
people to safe houses there. But by the end of the decade, he decided 
to transform Yemen from a logistical hub to an operational theater. To 
this end, al-Qaeda targeted the U.S.S. Cole in October 2000, leading to 
the death of 17 American sailors.
    After the 9/11 attacks, the Yemeni government allied itself with 
Washington and began cracking down on al-Qaeda. It arrested key 
operatives and allowed the United States to stage a missile strike 
against the organization's leader. By 2004, al-Qaeda appeared 
decimated.
    A January 2006 prison break by mid-level cadres reinvigorated the 
organization and by the end of the year, it was once again operational. 
Since then, al-Qaeda has carried out dozens of attacks against regime 
targets, Western diplomats, tourists, and oil installations. In 
December 2009, it embarked on a new strategy when it dispatched a 
suicide bomber to attack the American homeland. Though the attack 
failed, it sharply illuminated the threat al-Qaeda's Arabian affiliate 
poses to the United States.
    In January 2009, the Saudi Arabian and Yemeni branches merged to 
create al-Qaeda in the Arabian Peninsula (AQAP). The Saudi faction was 
compelled to seek the union after substantial losses brought the group 
to the brink of extinction. Though the Saudi regime was caught off 
guard when al-Qaeda began launching attacks in the kingdom in 2003, in 
subsequent years it was able to virtually eradicate the organization. 
The Saudi campaign led the remaining members to seek shelter in Yemen, 
where the regime has been less successful in stomping out the al-Qaeda 
branch there.
    AQAP is shrewd, compact, and has shown a remarkable resolve in 
implementing its strategy without getting distracted by superfluous 
conflicts. The group is a formidable adversary, the likes of which 
Washington has not faced since Bin Ladin's organization was decimated 
in 2001.

                       AQAP IN ITS YEMENI HABITAT

    AQAP has taken advantage of restless tribal regions to establish 
strongholds in areas far beyond the purview of the central government. 
Historically, Yemeni governments have been too weak to extend their 
authority to outlying provinces, giving the tribes there a substantial 
degree of independence. At the same time though, these clans have been 
frustrated by the modern regime's inability to provide basic services. 
As a result, they have often sold their loyalty to the highest bidder. 
In the past, they relied on largesse from the Marxist regime in South 
Yemen and Saudi Arabia.
    Today AQAP has exploited the tensions between the central regime 
and the tribal areas to carve out a sphere of influence. The 
organization is able to operate in these regions, often without fear of 
government retribution. It recruits mid-level cadres and foot soldiers 
among the tribes that host it.
    The clans that shelter AQAP do not share the group's extremist 
views and puritan religious outlook. Rather, they support the 
organization for political reasons. They use AQAP as a tool to leverage 
their position vis-a-vis the central regime. Nevertheless, AQAP's 
attacks and vehement denunciation of the government has drawn the ire 
of some tribes, creating problems for the organization.
    Despite its concentration on Yemen's tribal areas, AQAP has 
demonstrated its ability to operate far from its strongholds and it 
often drafts recruits outside these areas. To do so, it has developed a 
powerful propaganda machine that produces a bimonthly journal called 
Sada al-Malahim or Echo of Battles. It also reaches its audience 
through videos and internet statements. Recently, supporters of the 
organization began publishing an English magazine called Inspire that 
has proved to be widely popular among alienated Western Muslims who 
cannot understand the sometimes archaic Arabic used in Echo of Battles.

                     YEMEN'S EXTREMIST ENVIRONMENT

    AQAP's extremism is not a new phenomenon in Yemen. It is simply the 
latest in a long line of radical groups that have exploited the 
country's fertile extremist environment. Whereas Arab states such as 
Algeria and Egypt jailed and persecuted veterans returning from the 
Afghan campaign against the Soviets, Yemen not only welcomed back its 
fighters, it also embraced Arab combatants from other countries.
    With the regime too weak to combat its adversaries, it has relied 
on jihadists to fight its battles. When a union between North and South 
Yemen broke down in 1994, leading to civil war, President Salih 
dispatched Arab Afghans to subdue the secessionists. After a sectarian 
rebellion erupted in northern Yemen in 2004, the regime invited 
Salafists to quell it. The regime's historical tolerance of extremism, 
coupled with its alliances with jihadists, produced a society ripe for 
the radicalism preached by AQAP.

                             LOOKING AHEAD

    AQAP is firmly entrenched in Yemen. American airstrikes against the 
group in December 2009 and January 2010 failed to neutralize the group. 
On the contrary, an emboldened AQAP was able to ratchet up its violence 
in 2010, carrying out more attacks last year than in any previous year. 
Its strikes were more daring and sophisticated. It began to confront 
military units and ambush checkpoints. And it once again sought to 
target the American homeland when it sent parcel bombs in November 
aboard freight planes.
    The Yemeni military is ill-equipped to subdue AQAP. It is unable to 
operate efficiently in the tribal areas the organization calls home. 
Units dispatched to arrest AQAP cells are often captured. American 
training has gone a long way to shore up the Yemeni military, Coast 
Guard, and Navy. Nevertheless, there is still much that needs to be 
done to bring up these forces to the combat levels necessary to 
confront AQAP.
    The Salih regime has never viewed AQAP as the dire threat 
Washington has. Instead, it has focused on quelling a 6-year sectarian 
rebellion in the country's northern provinces and suppressing a 
secession movement in the South. Salih has told American diplomats that 
these two conflicts pose a more serious danger to his rule than AQAP 
does. In shifting military resources to address these two conflicts, 
the regime has at times neglected the AQAP file.
    The current unrest gripping the country is bound to benefit AQAP in 
the short term. With the regime increasingly focused on its survival, 
it is likely to shift military resources away from targeting AQAP, 
freeing the organization to plot attacks. In short, 2011 holds great 
promise for a group that has historically thrived on political 
instability.

              WHAT CAN THE UNITED STATES DO TO HELP YEMEN?

    Embrace a Regional Approach.--The United States must understand 
that there is no made-in-Washington solution to Yemen's problems. It 
must work with regional powers, such as Saudi Arabia, to solve the 
challenges faced by Yemen. The Saudis provide hundreds of millions of 
dollars in aid annually, dwarfing Washington's contribution. But unlike 
Washington's aid, which seeks to strengthen Yemen, Riyadh's money is 
funneled to the tribes to weaken the central regime and keep it in 
line. Washington needs to encourage Riyadh to take a more constructive 
approach towards Yemen.
    Seek to Integrate Yemen into the Gulf Cooperation Council (GCC).--
Yemen has long sought to join this exclusive club. Member states have a 
more intimate understanding of the challenges Sana'a faces and can 
better pool their resources to effectively address development and 
security concerns. The GCC can also offer Yemen a seat on key economic 
committees that would allow the country to benefit from the 
organization's deep coffers.
    Conventional Aid Approaches Will Not Work.--The United States has 
often believed that providing economic and technical aid can play a key 
role in solving their problems. But in Yemen, this approach will not 
work. The country simply does not have the technical capacity to absorb 
large amounts of aid. Examining past aid pledges to Yemen illustrates 
this dilemma. In 2006, international donors pledged $5.7 billion to 
Yemen. But 3 years later, only about $325 million of that had been 
disbursed.
    Focus on Making Government More Responsive to Citizens' Needs.--
Washington needs to concentrate on better governance programs that will 
restore Yemenis' faith in their government. To this end, Washington 
should invest in initiatives that improve financial transparency and 
alleviate bureaucratic inertia. Today, a number of the protests in 
Yemen are focused on accountability and corruption. Washington can 
address these issues by working with government ministries and non-
governmental organizations.
    Support Apolitical Forms of Islam.--Islam is not a monolithic 
religion whose primary goal is the destruction of the West. A number of 
Islamic currents are politically indifferent to America. In Yemen, 
Sufism has strong roots and its institutions are battling the same type 
of religious extremism that threatens the West. Washington needs to 
find a way to support Yemeni Sufism. Doing so will not only strengthen 
this moderate form of Islam, but also create a powerful counterweight 
to the radicalism Washington seeks to eradicate.
    Support Academic and Cultural Exchanges.--American expertise on 
Yemen is lacking. There are only a dozen scholars who have an intimate 
knowledge of the country. The best Yemen researchers come from France 
which provides ample funding for students and academics to sharpen 
their skills in the country. The American Institute for Yemeni Studies 
is tasked to do the same for Americans. But since 2008, the State 
Department has prevented scholars who have received Federal funding 
from using it in Yemen for security reasons. As a result, between 15-19 
scholars have been deprived of the opportunity to do research in Yemen. 
Academics who received grants in 2008 to do in-country research will 
see their funding expire later this year. In Pakistan where the 
security situation is precarious, the State Department has found a way 
to accommodate scholars. It needs to do the same for researchers in 
Yemen. At the same time, Washington should foster cultural exchanges by 
granting more visas to Yemenis who seek to study in America. Doing so 
will allow Yemenis to view the United States beyond the military-
security prism.

    Mr. Meehan. Well, thank you, Mr. Barfi.
    Thanks to each of our panelists for your testimony, which I 
know has had to be narrowed in terms of what you have been able 
to state during your opening statements. But I encourage you to 
draw on the full spectrum of your experiences in response to 
what I know will be a broad variety of questions from our 
panel.
    I am going to recognize myself for 5 minutes to begin my 
questioning, and I am also going to also say that I am going to 
have two parts. I want to just explore an opening question for 
you, Dr. Boucek, that will help us to frame this in a more 
general way in terms of the nature of this threat coming from 
al-Qaeda in the Arabian Peninsula. Then I have a very specific 
line of questioning regarding the issue of the thousand cuts, 
which I will explain for each of the panelists.
    So let me begin by stating that we began this hearing in 
the context of previous testimony, as I stated, that came from 
Secretary of Homeland Security Janet Napolitano, who has said 
the threat to the U.S. homeland was at its most heightened 
state since 9/11. Then Director Leiter said it was al-Qaeda 
from the Arabian Peninsula who was deemed to be the most 
significant threat to the homeland.
    I know that as we look back and we see some events that 
have actually taken place in the homeland most recently--Fort 
Hood with Nidal Hasan, the Christmas day attempted bombing in 
Detroit with Abdulmutallab, and most recently, the UPS cargo 
bomb, which landed in the airport in my district in 
Philadelphia.
    So let me ask you, Dr. Boucek, just for a moment, do you 
agree with those assessments by those learned folks in our 
intelligence community? Is it a factor of al-Qaeda in the 
Arabian Peninsula which creates that threat uniquely, or is it 
a function of the fact that they come out of a very 
destabilized area now in Yemen, which makes them a threat? Or 
is it both?
    Mr. Boucek. Thank you. I would absolutely agree, and I 
would say that in an address to the Carnegie Endowment last 
December, John Brennan called AQAP the most operationally 
active node of the AQ franchise.
    I think what we see is this--you know, in AQAP there is the 
space and the ability to plot and plan and mount operations 
that the organization takes advantage of. All of the systemic 
challenges that I mentioned in my opening statement has the 
Yemeni government incredibly preoccupied.
    I think what we see is the capacity and the presence of the 
Yemeni government is eroding, and the spaces in between are 
getting bigger and bigger, the spaces, the under-governed 
spaces in Yemen, where AQAP or other organizations we have not 
yet identified will take root and thrive in those environments.
    I think if you look at the organization, it has said what 
it wants to do and then tries to do it. If it fails, it tries 
again. It is, I think, very instructive to look at, you know, 
the case of Saudi Arabia. So during the height of the violence 
in Saudi Arabia, al-Qaeda never struck outside the kingdom. 
That is not the case now. Al-Qaeda in the Arabian Peninsula has 
the entire world as a stage.
    I think there are Yemenis, who are active in the 
organization, focused on Yemen, and they are Saudis who are 
interested in Saudi Arabia, but there is a third group that is 
focused on international targets. This is what is so scary to 
me.
    I think the problem in Yemen looks much smaller than it 
actually is, because there is such a small number of targets, 
relatively speaking, inside Yemen. There is not a large 
American community. There isn't an American school, nor any 
American corporations, or their targets, I think, this looks 
very small. If this was taking place in another country, it 
would look, I think, much larger. I think that oftentimes 
confuses kind of the scale of the problem that we are facing.
    Mr. Meehan. Well, thank you. You framed that well now, 
because you have talked about the nature of the threat that is 
coming out of that there, but its ability to sort of reach into 
our homeland. One of those that reached in most recently was 
the attempt with the parcel with United Parcel Service.
    I know also, Dr. Brachman, you talked about this aspect of 
the, you know, sort of the wannabes watching, you know, playing 
games, so to speak. But the fact of the matter is you can't get 
into the pro leagues unless you make it through competition. 
Here anybody can become a player. The question is the extent to 
which this is, you know, just actual play.
    Let me refer to something very specifically. It is the most 
recent issue of ``Inspire'' magazine. I think many of you have 
seen this, and I take two pieces out of it. This was the cover, 
$4,200 and a UPS plane. I read specifically from some language 
that was contained within. This was Awlaki's piece.
    It said, ``$4,200--that is what the Operation Hemorrhage 
cost us. This supposedly foiled plot, as some of our enemies 
would like to call it, without a doubt cost America and other 
Western countries billions of dollars in new security measures. 
That is what we call leverage. The success of the operation was 
to be based on two factors. The first was to pass the package 
through the latest security equipment. The second was to spread 
fear that would cause the West to invest in billions of dollars 
in new security procedures. We have succeeded in the former. We 
are now witnessing the exception of the latter.''
    Let me say that after Christmas day, we have spent billions 
of dollars on airport screening technology to deter future 
underwear bombers. Now in response to our defenses to the UPS 
plot, the air cargo is changing the nature of what they do. Can 
you talk about this strategy of death by a thousand cuts, each 
of you, and what steps can the Government take to combat this 
kind of strategy? Thank you.
    Mr. Brachman. Thank you, sir. That is a good question. But 
you are exactly right in the sense that AQAP has re-
conceptualized what success and failure means for al-Qaeda, 
right? So even in a tactical failure in the sense that the bomb 
didn't go off, it was still a success in that it caused 
basically all the same reactions, except the deaths. I think 
this is something that AQAP has really revolutionized.
    But the strategy of death by a thousand cuts has been 
pervasive since the beginning. Bin Laden has discussed it ad 
nauseum. Other al-Qaeda strategists have referred to this as 
vexation and exhaustion operations. How do you keep us so 
blinded and so exhausted that we lurch from place to place, and 
we spend money against everything until the point where we pull 
back and just guard our key resources, which opens up the 
periphery to them, security vacuums that they can exploit?
    I think they have really pioneered the way to use the media 
to advance their death by a thousand cuts strategy. One is that 
they have realized we are their best ally in terms of our 
overreactions, right? So even in this setting, the articles 
that come out of it will probably get fed back right into the 
next issue of ``Inspire'' to show that ``Inspire'' actually 
matters.
    So any time we say anything, right, that is a talking point 
that they can use to affirm their own legitimacy within their 
constituency, but also demonstrate to us just how scared we are 
of them. So I think that is the one side.
    The other side is that they have understood this concept 
that is pretty popular in terms of on-line social media called 
crowd sourcing, which is you have got thousands of kids who are 
out there doing random things on-line. They spend hours playing 
games, looking up articles. AQAP has figured out how do you put 
all these kids on the same path? How do you harness all of 
their collective energy to do something greater than the sum of 
just their energies?
    I think this is a really important development. This is 
what Awlaki's been able to do is herd a bunch of these, you 
know, these on-line cats to do anything at any level. Just as 
long as you are doing something down this path, you are 
inflicting pain, even if it is just talking about them talking 
about them.
    I think that is the challenge for us, because eventually 
Awlaki--the whole point of ``Inspire'' is to put downward 
pressure on that barrier from being an on-line legend to being 
a real-world legend, right? They make it easier to jump across 
and then try to do something in the real world. That is the 
brilliance of AQAP in terms of this propaganda. Thank you.
    Mr. Barfi. Yes, just to build on what Jarret said, 
basically, what we are looking at from al-Qaeda's perspective 
is a war of attrition. They are trying to wear America down, 
the American homeland down. But the problem is if they continue 
with unsuccessful plots, that could help them in the short 
term. But once you move from unsuccessful plots to successful 
plots, as what happened in 9/11, it angers the American 
population, and they are willing to give up more and work with 
the security system to combat the threat.
    So when al-Qaeda is unsuccessful, it gains more on this 
path than when it is successful. Unfortunately for al-Qaeda, it 
has success but failure in these failed plots. It is able to 
build up its media profile. It is able to gain respect and 
admiration from disillusioned Muslims in the short run, but in 
the long run, the problem is its plots have failed--great. 
These people say, ``Great. You tried to attack the American 
homeland, but you failed. You didn't inflict any damage on the 
United States.''
    So basically, there is a double-edged sword with these 
attacks here. You have the war of attrition on one hand, but 
you have success but failure on another.
    Mr. Boucek. I would just add very briefly that I think this 
also builds on many of the arguments that get made about 
economic jihad, about the resources that are spent fighting 
terrorism. Our resources aren't spent on other issues. 
Ultimately, wearing down the Yemeni government and exposing the 
vulnerability of the Yemeni government is in AQAP's interests. 
Getting the Americans to overreact into Yemen is in AQAP's 
interests.
    I think that the notion of this, you know, the low-cost, 
high-impact, demonstrates how opportunistic this organization 
is and how they are willing to experiment with all kinds of 
different things to see what happens. This gets filtered back 
into the learning process.
    So while the core al-Qaeda still has the ambition to mount 
spectacular attacks, that is much less likely to happen than 
the immediate attacks that AQAP represent.
    Mr. Meehan. Thank you.
    I will now recognize other Members for questions that they 
may wish to ask the witnesses. In accordance with our committee 
rules and practice, I plan to recognize Members who were 
present at the start of the hearing by seniority on the 
subcommittee. Those coming in later will be recognized in the 
order of arrival.
    Let me ask Mr. Thompson, turn it to Mr. Thompson for his 
questions. Thank you.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Barfi, with respect to unrest and terrorism in North 
Africa, are those protests in North Africa and the Middle East 
a good thing for al-Qaeda?
    Mr. Barfi. When you have regime change in the Arab world, 
in the short term it is going to benefit al-Qaeda, because 
there is going to be political instability. There is going to 
be the creation of vacuums.
    You look at a country like Yemen. If the regime falls, and 
there is a chance that that could happen today, the military 
will no longer be putting pressure on al-Qaeda. They are going 
to reinvent. It will allow al-Qaeda to spread, build its 
infrastructure, and create cells in other regions.
    Al-Qaeda has been on the ball on this one to release a lot 
of statements. Everyone is talking about Ayman al-Zawahiri's 
statement. One statement that hasn't gotten a lot of publicity 
is one by Atiyeh Fal al-Libi, who is a senior al-Qaeda leader. 
He basically praised the revolutions in the Arab world, and he 
said that he encourages jihadists to build military presence in 
the Sinai Peninsula.
    The Sinai Peninsula is a place where there have been 
clashes between the Bedouins and the military. There have been 
some attacks, suicide bombings in the past, and it is on 
Israel's border. So this is one of those prime places where if 
there is political instability, that al-Qaeda might be able to 
exploit it. So in the short term, this political instability is 
good for al-Qaeda.
    When we move to the longer term, if we can transition these 
Arab autocracies into democracies which respond to the people's 
needs, that will really dent al-Qaeda's popularity and appeal 
in the Arab world.
    But there is one thing I would like to say about the 
protests and what the people want. If you look at the squares 
in the Arab world, in Yemen or in Egypt, the people who are 
leading the protests and the people who are coming to the 
squares, they say they want democracy, and this is the most 
important thing to them. But they are the core group.
    But if you move outside in the peripheral support that 
really helps to overthrow the regime, these people are focused 
on two things--jobs and an end to corruption. When I was in 
Egypt during the revolution, what I heard from this people was 
we want an accounting with the old regime. We want an end to 
corruption.
    If America focuses too much on trying to build democracy in 
these areas without focusing on what the people want--to really 
have an accounting and really to end corruption and address the 
real problems in society--al-Qaeda will be able to thrive on 
that in the long term and try to increase its appeal and win.
    Mr. Thompson. So you are saying we ought to put more 
emphasis on where the people are philosophically and work with 
them, rather than trying to promote a firmer democratization on 
them?
    Mr. Barfi. Right.
    Mr. Thompson. Explain a little bit.
    Mr. Barfi. Well, democracy is very important. We are 
transitioning from authoritarian regimes to democratic regimes, 
and we are going to have to help these countries in this 
transitional process. That is very important.
    But a lot of the people, their grievances aren't with lack 
of freedom. It is with lack of jobs and the corruption. This is 
their grievances that I heard a lot in Egypt. We need to 
address that. We need to work with NGOs to address corruption, 
to reform the ministries.
    If you look at what is going on in Yemen right now, the 
regime is suffering defections by workers and students, because 
they want this director to resign because he is corrupt or this 
authority to be reformed because it is doling out ghost jobs. 
So those are the issues that the people on the ground are 
really concerned about.
    Democracy is very important, but we can't take our eyes off 
the ball on that either, sir.
    Mr. Thompson. Absolutely.
    Dr. Boucek, one of the things kind of impacting us in this 
country is the price of oil. Do you see any connection where 
AQAP poses a threat to this whole energy sector going forward?
    Mr. Boucek. Well, I think when you look at the targets that 
AQAP has gone after, they have been very consistent. They have 
been foreigners, the government, security services, ex-pats, 
foreign embassy, and the energy sector. There is a history of 
attacks against energy infrastructure not only in Yemen, but 
throughout the Arab world.
    I think what you see is that these are great targets, 
because it generates instant attention. It has an immediate 
effect on global crisis. It grabs. You prove your relevance and 
your power and your recruiting stature as you are doing this.
    I think in order to keep this in perspective, you need to 
think that, you know, Yemen produces probably 180,000 barrels a 
day. So it is a very small amount of oil that we are talking 
about, compared to Saudi Arabia, which produces about 10 
million barrels per day.
    So the impact, you know, when we see attacks against the 
energy infrastructure, usually the price goes up several 
dollars, but it usually moderates within the week. This is in 
part because we have never had a successful attack against a 
major energy installation.
    Mr. Thompson. But if in fact AQAP looked at Saudi Arabia as 
a target, then what you have just said is we have a real 
problem.
    Mr. Barfi. Absolutely. There is a history of attacks and 
attempted attacks against energy infrastructure inside the 
kingdom. AQAP has tried to mount attacks inside the kingdom, 
continues to do so, and this will continue to be a risk.
    I think the Saudis recognize this. I think the Americans 
recognize this. This is a target that is not only well-
protected, but I think people understand that, you know, were 
there to be a successful attack, the consequences could be very 
catastrophic for the economy and for the environment and all 
kinds of other after-effects.
    Mr. Thompson. Okay.
    I yield back.
    Mr. Meehan. Thank you, Mr. Thompson.
    I now turn to the gentleman from Minnesota, Mr. Cravaack.
    Mr. Cravaack. Thank you very much, Mr. Chairman.
    Thank you very much for our distinguished panel here.
    I want to hear what you have to say. My job as a 
Congressman is to protect Americans at home and abroad. I 
understand the asymmetric threat that we have in, again, some 
of these terrorist groups.
    I have now promoted you to be the Cabinet of the President. 
You are in front of the President right now. I have to make a 
decision in 4 minutes and 36 seconds. How would you brief the 
President in telling him how to combat this threat? Thank you.
    Mr. Boucek. Well, I think the important thing is to start 
out that we need to keep this in perspective, that terrorism is 
our biggest problem from Yemen. It is not Yemen's biggest 
problem. Terrorism is not going to destroy the Yemeni 
government. Al-Qaeda is not going to bring down the Saleh 
government.
    Focusing exclusively on terrorism will exacerbate the 
problems, I fear. So how do you help the Yemeni government 
build a better government? How do we get them to have the 
capacity to deliver more services? How do we improve the 
relationship between the Yemeni government and the people?
    The people need to feel that they have something invested 
in this, so it has to be, you know, addressing issues like 
governance, corruption, the economy, jobs, all of these 
systemic issues that, you know, are long-term issues.
    That has to be coupled with an immediate counterterrorism 
response, because there are cells and individuals, actors in 
Yemen that are plotting and planning operations right now.
    But this needs to be something that is not a large American 
footprint. It needs to be something that we do in cooperation 
with the Yemenis. This has to be a Yemeni-led program, because 
the Yemenis need to be out in front of this. Otherwise, we 
would de-legitimize the Yemeni government, which will 
ultimately increase the terrorism problem.
    So I think if we only focus on terrorism, we run the risk 
of making it worse. There is a need for robust 
counterterrorism, but it has to be much more quiet.
    Mr. Barfi. I think the first thing we need to focus on, 
building on what Dr. Boucek said, we need better government 
programs. We need to restore citizens' faith in their 
government. They don't have much faith in the government. So 
the government needs to be more responsive.
    We have to understand that there is no ``made in 
Washington'' solution to Yemen. We need to work with our 
regional allies. Chief among them is Saudi Arabia and the Gulf 
Cooperation Council. These countries have a much better 
understanding of the problems that Yemen faces than we do.
    We need to have better knowledge about Yemen. We just don't 
know that much about the country. You know, in the wake of the 
parcel plot bombing, intelligence agencies started scouring the 
country, looking for people who spoke special regional dialects 
in Yemen. There is just not that--they just don't have that 
here. So these are the things that we really need to work on in 
the short term.
    Mr. Brachman. I think in terms of AQAP's attempt to reach 
back here in the United States through propaganda and media, we 
don't have interagency consensus about what it is we are 
looking for or how do we know who is going to go operational. 
We don't have metrics. We don't have behavioral profiles, 
templates, frameworks for understanding the kinds of behavior 
that we are seeing on-line more and more.
    So I think we need to invest a lot of intellectual 
horsepower into looking at new trends in social media. There is 
a number of bodies of literature that just haven't been brought 
to bear to this issue that are appearing, you know, throughout 
al-Qaeda on-line media.
    So we need to understand that terrain before I think we can 
develop strategies, but we are pretty behind the curve in terms 
of that.
    Mr. Cravaack. I appreciate those comments, and I understand 
the problem. Now we have to deal with a solution. Just as you 
said, I just was briefed just a couple of seconds ago regarding 
a soldier that was killed in Germany using, again, on a bus 
somebody pulled out a weapon and killed him, along with two 
others that were injured.
    So this is the type of asymmetric warfare that I fear most 
coming to the United States. My worst fear is not necessarily 
someone with a special weapon. It is someone that uses some 
type of buyer weapon in the United States small as an aerosol 
can. This is what I fear. This is what I want to defend 
against. I understand our assets need to be in Yemen, but at 
the same time how do we defend the homeland? I have got 36 
seconds, and I hope I have some indulgence on the answer.
    Mr. Boucek. I think I would just say very briefly I think 
the best way that we can look at Yemen is in terms of risk 
management. We are not going to solve Yemen's problems, but we 
can limit our exposure. We can do that by the programs that my 
colleague just talked about. I think having a robust 
counterterrorism effort, trying to build governance and address 
the issues.
    Addressing water would go a long way. Eighty percent of 
violence in Yemen is about people fighting over water. That is 
not kind of the impression we have in the media, but I think if 
we want to reduce the overall level of violence in society, if 
we want to, you know, help Yemeni get along, we can do some 
things that, you know, are high-impact that are low-cost.
    Mr. Barfi. Security is our last line of defense in the 
homeland. I mean, whether it is security at the airport or at 
the entrance to the Cannon building, this is the last line of 
defense. We need to get the problem at the source, and that 
means better intelligence.
    We can't think that we can focus on a place like Yemen by 
just intercepting phone calls, which is a lot of what is going 
on. We need to get better intelligence on the ground. We need 
to develop tribal assets.
    As early as the mid-1990s, when we tried to take out Osama 
bin Laden, we had tribal assets in Afghanistan. Afghanistan was 
not a high priority for the United States. Yemen is. I mean, 
that is the thing that we need to do. We need better 
intelligence on the ground, sir.
    Mr. Brachman. I would say that al-Qaeda's personalities are 
not, they're not plug-and-play. It takes years to develop these 
kinds of cults of personality that come around, say, like 
Awlaki. So when they are taken out, they have a serious impact 
on the organization's ability to, you know, project itself in 
the media to inspire people.
    So I think from my perspective, it is not the users of, 
say, ``Inspire,'' those who are downloading Awlaki's videos. It 
is Awlaki himself. It is Samir Khan. It is the producers, 
because these people, they are disproportionately impactful in 
terms of al-Qaeda's propaganda, so I would go to the source on 
that.
    Mr. Cravaack. Thank you, gentlemen.
    I will yield back the negative balance of my time, sir.
    Mr. Meehan. Thank you, Mr. Cravaack.
    Now I would like to turn to the gentlewoman from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    I thank Mr. Thompson for his very able handling of this 
intelligence subcommittee. We do miss Jane Harman and wish her 
well.
    Thank you, gentlemen, for your presentation today.
    I am glad to what the end of the statement that you made, 
Mr. Barfi, you mentioned the issue of human intelligence. Let 
me first of all acknowledge the need for securing the homeland. 
I guess that is why I have been on this committee since its 
origins, since it was considered a select committee on homeland 
security post hours after 9/11.
    As well, I think one can balance the civil liberties and 
Constitutional privileges that we have in this country along 
with very astute handling of security issues. So forgive me if 
I have, pose questions that seem to be somewhat provocative, 
but let me just pose a rapid series of questions.
    I will start with you, Mr. Barfi, and then I would change 
my tone. Do we need military action to address this question?
    Mr. Barfi. At this point in time, I think that it is best 
to work with our Yemeni allies to take out al-Qaeda, to take 
out the threat that it poses. Increased American military 
action in Yemen only causes blowback and increases the 
recruiting appeal of AQAP.
    What we have seen with the missile strikes in December and 
January, in December 2009 and January 2010, were not all that 
efficient. There was talk that we killed senior leaders, and we 
had only killed about, I think, one senior leader and one mid-
level leader, so we just doesn't have the good intel on that as 
well. So I would caution--I would advise against that and try 
to work with the Yemeni military and try to build up their 
capacity, ma'am.
    Ms. Jackson Lee. Dr. Brachman.
    Mr. Brachman. Ma'am, al-Qaeda strategist and thinker Abu 
Yahya al-Libi wrote a whole statement on this exact question, 
saying that he knows we are smart enough not to bring military 
forces directly into Yemen, but it is our need to still justify 
to the American people that we are doing something that will 
cause us to de-legitimize the Yemeni regime by bragging about 
the military-to-military relationship that we have. So the more 
that we talk about it, the more that their Government will look 
like upon of us.
    So there is the bigger point here is that al-Qaeda has--
they telegraph everything. They lay down strategies, and I 
don't think that piece made any traction with the U.S. 
Government, so they are always telling us how they are thinking 
about us, and they are usually a step ahead in terms of 
thinking about what we are thinking about in terms of military 
strength.
    Ms. Jackson Lee. So your answer is----
    Mr. Brachman. I agree.
    Ms. Jackson Lee. Not to use--all right.
    Mr. Brachman. I agree--and to be quiet about the kinds of 
relationships----
    Ms. Jackson Lee. Any kind of interaction that we have.
    Dr. Boucek.
    Thank you.
    Mr. Boucek. I think, you know, the place for American 
military action needs to be very quiet and very clandestine, or 
else we will make the situation much, much worse, I think, as 
my colleague said.
    I think instead of thinking of Yemen in terms of trying to 
do Pakistan, we should try to think about it in terms of how to 
do Colombia. How do you build the capacity for the Yemenis to 
do this?
    Ms. Jackson Lee. Let me throw this out, so I can get my 
questions then before the actual bell rings. I think it was 
quite well framed, and I think all of you framed it to indicate 
how distracted the Yemeni leadership is--civil war, protests, 
secessionist movement, particularly a population that has, 
what, 40, 40 percent plus unemployment, mostly young men, and 
as I understand it in my visit, a 4 o'clock break with some 
kind of khat that distracts a lot of them.
    So my question, if you can answer these two questions, give 
me the real, real threat of Yemen's ability to promote future 
attacks on the United States either by the cleric that is 
there, and then secondly, the impact of Saudi Arabia's closing 
of the border, no opportunity for jobs, and the importance of 
human intelligence.
    Mr. Boucek. I think I would say very quickly, Ms. Lee, the 
ability to mount attacks comes when the Yemeni government's 
authority and capacity is eroded. This is what we see. This was 
played out last places throughout the world, and we know what 
will happen in Yemen if we don't do something to stop this. It 
will affect American domestic security.
    In terms of the role for Saudi Arabia, Yemen's future lies 
with the Gulf and Saudi Arabia. If we give $300 million in aid 
to Yemen, the military and security systems and development, in 
their turn the Saudis would probably give $1.5 billion to $2 
billion worth of assistance. They have the longest, deepest 
relationship, and it is their problem first and foremost.
    We all need to be on the same page, and we need to work 
with Saudi Arabia to address this issue.
    Mr. Barfi. The problem that we have in Yemen is that there 
are two-fold here. The regime does not view AQAP as its primary 
threat. Saleh has said this to American diplomats in the past. 
The Houthi rebellion in the north, the sectarian rebellion in 
the north, is his chief priority.
    The AQAP does not pose an existential threat to the regime. 
It cannot bring the regime down, so it is just a minor thorn in 
its side. In contrast, to the United States it is a very big 
issue, and this is what we harp on when we speak to President 
Saleh, when we send our diplomats and senior officials. So that 
is the problem in one way.
    As for Saudi Arabia, the problem with Saudi Arabia is that 
it plays a double-edged game in Yemen. It supports the regime 
on one hand, and it supports the tribes on the other, which 
weaken the central regime. So we need to encourage the Saudis 
that stability is in their interest and convince them to 
support the regime and not elements that destabilize the 
government.
    Ms. Jackson Lee. Dr. Brachman.
    Mr. Brachman. Just very quickly, I think it is a two-step 
process in terms of al-Qaeda targeting into the United States 
to radicalize our citizens. The first step is they are the 
proverbial satellite, right? They project the bad signal up 
into the sky, and then they convince as many Americans as 
possible that they can be Batman, right? So that is a call to 
action.
    I think that is the most dangerous thing, from my 
perspective, is that they have focused on doing that more than 
any other al-Qaeda franchise that we have seen, and they are 
better at it than any other al-Qaeda----
    Ms. Jackson Lee. They are calling to action.
    Mr. Brachman. That is right.
    Ms. Jackson Lee. Mr. Chairman, thank you for indulgence. I 
yield back.
    Mr. Meehan. Thank you, Ms. Lee.
    At this point in time, I would like to turn now to the 
gentleman from New York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Yemen is the poorest country in the Middle East. As has 
been said, the unemployment rate is very high, 35 to 40 
percent. Like most countries in North Africa and the Middle 
East, it is also very young.
    My question is: You know, when you look at civil unrest, is 
it the civil unrest that we want that will result in your 
political reform, or is it the civil unrest that will be 
exploited for bad purposes? Some have said, particularly 
administration officials, that a lot of this civil unrest in 
the Middle East and in Yemen is a rejection of violent jihad. 
Just your thoughts on that, each of you?
    Mr. Barfi. Having spent a month in the region, I can tell 
you that these protests are very secular in origin. Inside the 
squares they are shouting secular slogans. They are not talking 
about jihad. They don't talk about Allah. They don't talk about 
religion.
    That said, there is a bridging between the moderate 
Islamist, which is the Muslim Brotherhood, and the secular 
activists in places like Liberation Square in Egypt. They were 
very active. The Muslim Brotherhood really helped.
    But the Muslim Brotherhood is much different than the 
radical jihadists such as al-Qaeda. So if we hear a regime 
like--excuse me, if we see a regime like Yemen fall, and we ask 
what will happen next, it will be somewhere between Tunisia and 
Libya. It will not be as pleasant as what we saw in Egypt on 
that account, sir.
    Mr. Brachman. Sir, I would just respond from al-Qaeda's 
perspective. Zawahiri has put out thirds of statements on this. 
Other al-Qaeda figures have. I have never seen their interest 
in being so quiet. They realized that they need to make 
concessions, compromises, coalitions.
    So right now al-Qaeda's line is wait and see, keep your 
head down. This is the most reflective, I guess, that I have 
seen al-Qaeda senior leadership. They realize that things are 
afoot right now, and they aren't the dominant party, but they 
think that they can work within this kind of space, that this 
might afford them to slowly consolidate and coalesce some 
strength.
    Mr. Boucek. I think when we are talking about Yemen and the 
potential for unrest, there should be very significant concern 
for the United States, especially because there is no 
government to replace the current regime. President Saleh has 
made himself the one indispensable political actor in Yemen, 
and no one else can fill that vacuum when he leaves.
    Yemen has never been a fully functioning, cohesive, unified 
state, and likely never will be in the short term.
    Mr. Higgins. Correct.
    Mr. Boucek. We need to prepare for that. I think when we 
think about what happened in North Africa and other places in 
the region, no one wants to see, I think, from a government 
point of view, no one wants to see President Saleh go, because 
we need this government in the fight with AQAP, which is our 
biggest concern.
    I think this comes to a point that we do not understand who 
makes decisions in Yemen and why. Until we understand why they 
make the decisions they to, we won't be able to re-incentivize 
them to do things differently.
    Mr. Higgins. Right. The United States has a considerable 
investment in development and military aid to Yemen. You know, 
how reliable is this president? You know, we deal with this 
stuff in Pakistan, Afghanistan, where by day they are our 
friends, and at night they are not. It is very duplicitous.
    Does President Saleh see that al-Qaeda in the Arabian 
Peninsula is the existential threat? Or was it the rebels in 
the north and the south that he is preoccupied with? You know, 
I am just----
    Mr. Boucek. I mean, I think you can look at what is going 
on at the country in terms of the civil war or the south or the 
protest movement or AQAP. These are all symptomatic of the 
breakdown of the Yemeni state. I think I would argue that if we 
do not reverse the problem to match our rhetoric, if we talk 
about Yemen being a National priority, if we talk about AQAP 
being the most significant threat, we don't put anywhere near 
the amount of resources we should to deal with this problem.
    Pakistan gets billions of dollars in assistant every year, 
and Yemen gets $300 million. The Yemenis look at us and think, 
you know, how big is your checkbook and what have you done for 
me lately? This is how they look at international partners. 
Does it match their commitment?
    Mr. Higgins. Okay.
    Mr. Barfi. Well, the problem on that, in the difference in 
Pakistan and Yemen, is Yemen just doesn't have the technical 
capacity to absorb massive amounts of aid. I think in 2006 
there was a donor conference. I think $5.7 billion was pledged.
    Three years later, I don't think more than 5 percent or 6 
percent of that aid was disbursed, because they just don't have 
the technical act. They don't have the experts to absorb that 
aid. The ministries aren't ready. The bureaucracy is 
inefficient. So we can't look at those types of situations and 
say, oh, we can just model upon Yemen--to model that, put that 
on Yemen.
    To answer your question, sir, Saleh is firmly entrenched in 
the U.S. camp to battle al-Qaeda. In the past the Yemeni regime 
has forged alliances with jihadists, especially those returning 
from Afghanistan, the Afghan Arabs.
    But after the Christmas day bombing, Saleh came out with 
really a big diatribe against al-Qaeda. He used very, very 
negative language, the first time I ever saw him speak so, too, 
personally against al-Qaeda in this fashion. He has really come 
on board to fight al-Qaeda.
    That said, the problem is that the military just don't have 
the capacity and the resources to fight al-Qaeda. When they 
send military units into these al-Qaeda strongholds, instead of 
capturing al-Qaeda members, the soldiers are captured. This has 
happened on a few occasions. Military training takes a lot of 
time, and we have to be patient.
    Mr. Higgins. Got it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Meehan. Thank you, Mr. Higgins.
    I am going to give an opportunity for those who would like 
to just ask one more round of questions to follow up on any of 
the information that came before us to this point in time. So I 
will first recognize myself to ask a question in response to 
what you have been talking about, each of you, in your 
analysis.
    I am struck by the fact that much of this seems to be 
focused in a way which is precarious. A lot of what we are 
doing is we are playing a waiting game as well, in which we 
watch events unfold in Yemen, as we are watching in other 
places.
    Your testimony appeared to suggest that we want to be very, 
very careful about any kind of military involvement, which 
would that include as well if we are able to identify Awlaki 
and, you know, sending a drone in there to take out Awlaki? I 
mean, in a very unstable environment, do we still continue to 
act proactively to try to protect the homeland?
    A lot of what you are discussing focuses on our ability to 
both watch and perhaps encourage more stabilization in Yemen to 
tamp down the threat, but how does that reflect the threat we 
have to actual acts of terrorism being carried out in the 
United States that would harm United States citizens?
    I think we seem to have two--not necessarily conflicting, 
but two different interests here that we are talking about. 
Certainly, we want to protect first and foremost the homeland 
here. Can we do that and still watch events unfold in a way in 
which we are sort of waiting to see?
    Mr. Boucek. I think I would respond by saying I think there 
is a need to be proactive, to be sure. But I think we 
oftentimes want to look at organizations like AQAP and think of 
it as a organization with a clearly identified leadership, 
where is eliminating the top 10 or 15 people will eliminate the 
organization.
    I think that that thinking, unfortunately, probably does 
not mesh with much reality on the ground, where there is a 
movement that this comes out of. I think we can degrade the 
capacity for this organization to strike at American targets, 
to be sure, but in the end we need a long-term view.
    I think this is the big dilemma facing, you know, American 
foreign policy is that it is not just Yemen. It is anyplace 
where state authority is eroded, like Tajikistan or Mauritania 
or fill in the blank. Places where central government authority 
does not exist, bad stuff will come out of.
    This is a long process to build that, so we need to look at 
this, you know, in the short term and the near term, but also 
how do we square, you know, our immediate security concerns by 
supporting a government like the Yemeni government and also 
have the dialogue with the Yemeni people saying that we are 
supporting reform, democracy, and improvement of your lives, 
because it looks like these two are at odds.
    By first supporting the Yemeni government that is keeping 
the Yemeni people down, we will exacerbate the problem. So we 
need to have a dialogue and a policy that will embrace all of 
this.
    Mr. Barfi. I agree wholeheartedly with Chris. If you take 
out the AQAP leadership, there is no guarantee that something 
new might not--might pop up in the future. I mean, look at al-
Qaeda's history.
    We took out the top leadership. The No. 2 guy was arrested 
in 2004. The No. 1 guy we got with a drone missile in 2002, 
2003. I think it was 2002. The organization came back. You will 
always find somebody to take over this role.
    That said, if we have information of a strike against the 
American homeland, there is no doubt that we need to take 
preemptive measures against that, too, to snuff it out before 
it occurs.
    The administration has put a great premium on Anwar Awlaki, 
that she is a very key player in AQAP. I am not convinced of 
that. I think that he plays a role in the organization, but he 
is not as important as people like Nasir al-Wahishi and Qasim 
al-Rimi, who are the political leader and the military leader.
    Awlaki does work on the western side, and that is our big 
threat, and the problem is that we see these things, these 
issues, through a security, a military security prism. That is 
not what the people on the ground in Yemen see. They want 
improvement in their lives. They want a better tomorrow. We 
need to work with them to get that. If we don't, there will be 
more people to take these peoples' place in al-Qaeda, sir.
    Mr. Meehan. Thank you.
    Let me turn it to my colleague, Mr. Thompson, for his 
question.
    Mr. Thompson. Thank you very much. This has been an 
excellent panel, and the information presented has been very 
good--troubling, but good.
    Mr. Barfi, let me thank you for making that extra effort to 
get here. I kind of pushed in the Chairman's ear what it took, 
but we do appreciate your getting here--the other witnesses 
also.
    One of the issues that is surfacing now is we have looked 
at aviation security as a vulnerability, and we have 
historically chased the threat after it occurs. From a planning 
standpoint is it still aviation, or you think that some other 
threats out here that we ought to be cognizant of in a similar 
light as we are aviation? I will just start with Dr. Boucek and 
go down.
    Mr. Boucek. Thank you. I would say briefly, I think, that 
when we look at AQAP, they often go after the same targets. 
When they succeed, they try again. I think if you looked at--
you know, there have been several attacks against the American 
embassy. That should be a concern when you think about 
aviation. Twice they have targeted American aviation. That has 
not yet succeeded, so I would anticipate that that would 
continue.
    When I look at the organization and the material they have 
produced and the things they have failed, one of the things I 
am most concerned about are points that my colleagues have 
made, which is how this movement has opened up the potential 
for others to participate.
    I think when you look at the people who have been accused 
and charged with crimes in participation with terrorism in this 
country, the fact that some of them have never been to Yemen, 
but are influenced--by Yemen, that is what is concerning to me.
    If it is a random shooting or bombing, I think they don't 
look like major plots, but I think we would see that more and 
more.
    Mr. Thompson. So are you talking, like, over the internet 
or just through other means of communication, or----
    Mr. Boucek. I mean, I think when we look at the past, you 
know, cases in this country, people that have communicated with 
individuals in Yemen, people have tried to go to Yemen, people 
have been influenced by material produced from Yemen, from 
individuals in Yemen, I think that is a concern.
    As we see the Yemeni government's capacity erode, it is 
jeopardizing American security.
    Mr. Brachman. I think there are two competing trends here. 
Several years ago a self-styled al-Qaeda pundit released an 
essay called ``Cold Terrorism.'' He said that we are so bent on 
the big explosions and getting a lot of media visibility, we 
actually do ourselves a disservice, because that forces the 
overreaction, then, of law enforcement and intelligence against 
it.
    So why don't we just do kind of what happened during the 
Cold War--fight by proxy, do things quieter? I mean, he said, 
rather than hijacking and blowing up a plane, why don't we just 
drive two Greyhound buses off a bridge? We kill the same number 
of people. There is no security. It will be a lot easier.
    It made a lot of sense, but nobody read it. The article got 
no traction. Nobody talked about it. It just was really boring, 
because there is still this mythology around things that blow 
up within al-Qaeda. This is a machismo organization that it is 
media first for them.
    So I think while you see this interest within the 
``Inspire'' magazines about, you know, going to a restaurant in 
the District of Columbia or weld on a blade under your Ford F-
150 and drive through crowd of people, you know, it is gimmicky 
and novel, but at the end of the day you still want to blow up 
a plane or fly a plane into something. I think that is still 
kind of where it is. But I don't know which trend will win out.
    Mr. Barfi. There is always the desire for spectacular 
attacks, because they gain you more publicity. But this is a 
war of attrition. It is long-term. It is a 100-year war. It is 
a 1,000-year war. Any attack that you have against the American 
homeland is considered a great success.
    Nidal Hasan's attack in Fort Hood was an amazing success, 
because you had it in the most secure part of the American 
homeland, on a military base. We will probably see the 
likelihood of AQAP reaching out to more Muslims in the Western 
world to plot small-scale attacks, which they can then raise as 
the banner of success. So I think that is what we will be 
looking for in the short to medium term, sir.
    Mr. Thompson. Sort of like lone wolves or those kinds of 
individuals are what you are talking about?
    Mr. Barfi. Exactly. You make contact with these people on 
the internet. This is what Dr. Brachman, his expertise and what 
he told us all about. They are reaching out to these people on 
the internet. You are going to get these loners, and they are 
going to be brought in by the recruiting and the propaganda, 
make connections with them. It doesn't take a lot of planning 
and expertise. You know, they are armchair fans, the fantasy 
league.
    The problem with this is from a security standpoint, we 
just can't stop something like that. There is just not a lot of 
security. The last line of security to get into, you know, a 
place like the Cannon building is not going to help when you 
walk into a restaurant, because we don't have that. So this is 
probably what we are going to see in the short to medium term.
    Mr. Thompson. One other comment, one other thing, Mr. 
Chairman. We have tried to layer some of this--is to get the 
public more involved and, you know, if you see something, you 
ought to say something rather than just go about your business, 
so to speak, because this notion that Government can provide 
all the defenses necessary to protect us from any of these 
threats, I think, at best is a novel, if not something that 
learned individuals know we can't fully accomplish.
    So not saying that we won't do our best to prevent it, but 
one of the other challenges we have is how vigilant we are as a 
Nation when something like this happens and is successful. Part 
of the modeling has been after some other countries that have 
been involved in terrorism a good bit. So it is a challenge.
    Again, Mr. Chairman, I think you have put together a good 
panel of witnesses, and the information has been very 
informative. I yield back.
    Mr. Meehan. Well, thank you, Mr. Thompson. I appreciate 
your comment. I just want to take 1 second to add to that very, 
very important observation.
    I note that that was both--an observation was made by a 
vendor that prevented the actual harm in New York Times Square. 
Most recently, evidence seems to suggest it was the observation 
made by a vendor of one of our chemicals that alerted 
authorities to the unfolding of a potential event in Texas. 
Both of those cases were when an involved citizen stepped up 
and alerted authorities to suspicious activities. So thank you 
for making that observation, Mr. Thompson.
    I note the attendance of my colleague from it is either 
Missouri or Missoura, depending on which part you are from, Mr. 
Long. But I know that he will be reviewing the record and 
doesn't have questions for us today.
    So I want to thank you for being a very, very good panel 
for us that brought a full perspective, or a more full 
perspective, into this unique challenge of al-Qaeda in the 
Arabian Peninsula, particularly into the context of unfolding 
events in Yemen.
    We will be guided by your observations in our continuing 
quest to both not just understand the nature of the threat as 
it grows and emerges, but what our responsibilities are to work 
with the resources in our Nation to protect our homeland from 
actual events of terrorism that result from this and other 
activities around the world.
    So I am very, very grateful for your presence here, your 
testimony and your questions from the other Members.
    The Members of the committee may have additional questions 
for the witnesses, and we will ask you to respond to those in 
writing at some point in time, if in fact they do, and the 
hearing record will be open for 10 days to do so.
    I remind the subcommittee that 15 minutes after the end of 
this, we will move to HVC-302 to receive a classified briefing 
on this same issue from the FBI, the National Counterterrorism 
Center, and the Department of Homeland Security for their 
observations posed by al-Qaeda and the homeland.
    Let me just make my parting comment reflect on. As we have 
been sitting here, unfolding events around the world still--my 
colleague, Mr. Cravaack, referenced it. It appears that there 
have been two United States soldiers who have been killed in 
what looks like a terrorist attack in Frankfurt, Germany, in an 
airport.
    So first and foremost, of course, our thoughts and prayers 
are with them and their families at this very sad time. But it 
drives home the very real nature of the matter that is before 
us today.
    So I want to express again my appreciation to each of you. 
Without objection, the committee stands adjourned.
    [Whereupon, at 11:26 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

   Questions Submitted by Honorable Billy Long for Christopher Boucek

    Question 1. Where do AQ's resources come from? How well-funded are 
they?
    Answer. Al-Qaeda in the Arabian Peninsula's resources appears to 
come from several sources. These include funds derived from criminal 
activity, such as bank robberies and armored car robberies. Fundraising 
is also a source of financial support for the organization, and there 
have been several cases in other Gulf States of alleged fundraising for 
AQAP. It should be remembered, however, that terrorism is a relatively 
inexpensive endeavor, and large sums of money are not needed to mount 
successful operations. According to AQAP, the October 2010 package bomb 
operation cost only $4,200.
    Question 2a. AQAP like other terrorist organizations such as Hamas 
in the Territories or Hezbollah in Lebanon, has used the corruption in 
government and poor economic conditions to broaden their base of 
followers.
    How do you address the leadership vacuum within the Yemeni or other 
governments?
    Question 2b. How can persuasive leadership inspire the people to 
actively participate in moving their country forward toward 
development, or join in the debate over how best to do so?
    Question 2c. How can you teach leadership in a place where it has 
been suppressed?
    Answer. AQAP's manifestation in Yemen is the result of many 
factors--chief among them is declining capacity of the Yemeni central 
government. The under-governed spaces in Yemen have been increasing in 
recent years, and this has been exploited by AQAP. Washington has very 
little leverage with which to influence events (or the leadership) in 
Yemen. The U.S. Government must be realistic about what the United 
States--or the international community--can accomplish. Ultimately, 
many of Yemen's problems cannot be solved. Resource depletion, economic 
failure, and explosive population growth represent an almost 
insurmountable set of challenges, and these conditions cannot be 
completely reversed.
    The primary policy challenge with regard to Yemen is how to build 
the relationship between the Yemeni people and their government. This 
will require building the capacity of the Yemeni government to be 
responsive to the needs of its people and to expand the capability of 
the central government to deliver basic services throughout the 
country. It will also require the building of confidence in the Yemeni 
people that their government is working in their interests.
    Question 3. How can you make the argument to the Yemeni government 
that their goals of maintaining stability and fighting AQ are not 
exclusive and can be done concurrently inasmuch as resources are 
concerned?
    Answer. While the Yemeni government often views AQAP and Islamist 
terrorism as a threat, it has not been a primary challenge or even a 
major threat to the regime. There are many more serious challenges that 
pose a direct threat to the stability of the state and the survival of 
the regime. Since the start of the current protest movement, the Yemeni 
government has redeployed its counter-terrorism assets from going after 
AQAP and moved them to bolster internal security. In recent months 
Islamist fighters--possibly including some al-Qaeda elements--have been 
increasingly active in the south of the country. As the central 
government's authority continues to recede, the operational space for 
AQAP is increasing. While the Saleh government has sought to reassert 
control in some areas, their ability to fully establish control is not 
known.
    Question 4a. You mentioned that our overreaction from the media and 
changing nature of AQ have shifted the definition of ``success'' from 
successfully carrying out an attack toward instilling fear and forcing 
the government to deplete its resources, leveraging a $4,200 operation 
into a multi-billion dollar effort to counter such an operation. The 
planning and funding of a 9/11-style attack are no longer necessary to 
achieve these goals. You say that hijacking two Greyhound buses and 
driving them off a bridge would not have such an impact as an explosion 
or bomb, but the attacks we have seen (or attempts) have been much 
smaller in scale.
    If the goal is to instill fear in people, do you think that there 
will be a time in the near future when AQ begins using Israeli-style 
attacks in restaurants or nightclubs, effectively creating an 
environment of fear? Or small subway attacks?
    Question 4b. How would the United States handle this sort of 
campaign?
    Answer. This question is not directed to me.
    Question 5. How can governments learn from the tactics of AQ and 
use social media and community networks to counter the message AQ is 
getting out to their followers?
    Answer. I would suggest that our challenge is not getting out a 
different message to compete with that of AQAP, but in demonstrating 
that the United States is working to address the systemic challenges in 
Yemen that gives rise to al-Qaeda and other violent opposition.
    A collapsing economy, rampant corruption, widespread unemployment, 
rapid resource depletion, and a series of political and socio-economic 
challenges have manifested as security challenges to the current ruling 
government. A policy centered on counter-terrorism to the near 
exclusion of other issues will ultimately prove counterproductive. 
While initial gains may be seen, they may be short-lived. Improving 
American security will come when conditions in Yemen improve for all 
Yemenis. Working to make small improvements across the spectrum of 
these challenges, we can reduce the severity of their impact, lessen 
the humanitarian suffering, and strengthen the Yemeni government. This 
will hopefully improve U.S. security and bolster Yemeni stability.

    Questions Submitted by Honorable Billy Long for Jarret Brachman

    Question 1. Where do AQ's resources come from? How well-funded are 
they?
    Answer. Response was not received at the time of publication.
    Question 2a. AQAP like other terrorist organizations such as Hamas 
in the Territories or Hezbollah in Lebanon, has used the corruption in 
government and poor economic conditions to broaden their base of 
followers.
    How do you address the leadership vacuum within the Yemeni or other 
governments?
    Answer. Response was not received at the time of publication.
    Question 2b. How can persuasive leadership inspire the people to 
actively participate in moving their country forward toward 
development, or join in the debate over how best to do so?
    Answer. Response was not received at the time of publication.
    Question 2c. How do you teach leadership in a place where it has 
been suppressed?
    Answer. Response was not received at the time of publication.
    Question 3. How can you make the argument to the Yemeni government 
that their goals of maintaining stability and fighting AQ are not 
exclusive and can be done concurrently inasmuch as resources are 
concerned?
    Answer. Response was not received at the time of publication.
    Question 4a. You mentioned that our overreaction from the media and 
changing nature of AQ have shifted the definition of ``success'' from 
successfully carrying out an attack toward instilling fear and forcing 
the government to deplete its resources, leveraging a $4,200 operation 
into a multi-billion dollar effort to counter such an operation. The 
planning and funding of a 9/11-style attack are no longer necessary to 
achieve these goals. You say that hijacking two Greyhound buses and 
driving them off a bridge would not have such an impact as an explosion 
or bomb, but the attacks we have seen (or attempts) have been much 
smaller in scale.
    If the goal is to instill fear in the people, do you think that 
there will be a time in the near future when AQ begins using Israeli-
style attacks in restaurants or nightclubs, effectively creating an 
environment of fear? Or small subway attacks?
    Answer. Response was not received at the time of publication.
    Question 4b. How would the United States handle this sort of 
campaign?
    Answer. Response was not received at the time of publication.
    Question 5. How can governments learn from the tactics of AQ and 
use social media and community networks to counter the message AQ is 
getting out to their followers?
    Answer. Response was not received at the time of publication.

      Questions Submitted by Honorable Billy Long for Barak Barfi

    Question 1. Where do AQ's resources come from? How well-funded are 
they?
    Answer. Response was not received at the time of publication.
    Question 2a. AQAP like other terrorist organizations such as Hamas 
in the Territories or Hezbollah in Lebanon, has used the corruption in 
government and poor economic conditions to broaden their base of 
followers.
    How do you address the leadership vacuum within the Yemeni or other 
governments?
    Answer. Response was not received at the time of publication.
    Question 2b. How can persuasive leadership inspire the people to 
actively participate in moving their country forward toward 
development, or join in the debate over how best to do so?
    Answer. Response was not received at the time of publication.
    Question 2c. How do you teach leadership in a place where it has 
been suppressed?
    Answer. Response was not received at the time of publication.
    Question 3. How can you make the argument to the Yemeni government 
that their goals of maintaining stability and fighting AQ are not 
exclusive and can be done concurrently inasmuch as resources are 
concerned?
    Answer. Response was not received at the time of publication.
    Question 4a. You mentioned that our overreaction from the media and 
changing nature of AQ have shifted the definition of ``success'' from 
successfully carrying out an attack toward instilling fear and forcing 
the government to deplete its resources, leveraging a $4,200 operation 
into a multi-billion dollar effort to counter such an operation. The 
planning and funding of a 9/11-style attack are no longer necessary to 
achieve these goals. You say that hijacking two Greyhound buses and 
driving them off a bridge would not have such an impact as an explosion 
or bomb, but the attacks we have seen (or attempts) have been much 
smaller in scale.
    If the goal is to instill fear in the people, do you think that 
there will be a time in the near future when AQ begins using Israeli-
style attacks in restaurants or nightclubs, effectively creating an 
environment of fear? Or small subway attacks?
    Answer. Response was not received at the time of publication.
    Question 4b. How would the United States handle this sort of 
campaign?
    Answer. Response was not received at the time of publication.
    Question 5. How can governments learn from the tactics of AQ and 
use social media and community networks to counter the message AQ is 
getting out to their followers?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
